<html>
<title> - GAO REPORT ON ``OPPORTUNITIES TO IMPROVE THE MANAGEMENT AND OVERSIGHT OF OIL AND GAS ACTIVITIES ON FEDERAL LANDS''</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
GAO REPORT ON ``OPPORTUNITIES TO IMPROVE THE MANAGEMENT AND OVERSIGHT 
             OF OIL AND GAS ACTIVITIES ON FEDERAL LANDS''

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 30, 2003

                               __________

                           Serial No. 108-75

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov



                                 ______

90-158              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Madeleine Z. Bordallo, Guam
Randy Neugebauer, Texas              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, October 30, 2003.......................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
        USA Today articles submitted for the record..............     7
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     3
    Tauzin, Hon. W.J. ``Billy,'' a Representative in Congress 
      from the State of Louisiana................................     4

Statement of Witnesses:
    Hill, Barry T., Director, Natural Resources and Environment, 
      U.S. General Accounting Office.............................     9
        Prepared statement of....................................    11
        Response to questions submitted for the record...........    18
    Smith, David, Deputy Assistant Secretary for Fish and 
      Wildlife and Parks, U.S. Department of the Interior........    23
        Prepared statement of....................................    25
        Response to questions submitted for the record...........    28

Additional materials supplied:
    Defenders of Wildlife, Statement submitted for the record....     5
    Waltman, Jim, Director of Refuges and Wildlife, The 
      Wilderness Society, Statement submitted for the record.....    47


    OVERSIGHT HEARING ON THE RECENTLY RELEASED GAO REPORT ENTITLED, 
``OPPORTUNITIES TO IMPROVE THE MANAGEMENT AND OVERSIGHT OF OIL AND GAS 
                     ACTIVITIES ON FEDERAL LANDS''

                              ----------                              


                       Thursday, October 30, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 9:34 a.m., in 
Room 1324, Longworth House Office Building, Hon. Wayne 
Gilchrest [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest, Tauzin, Neugebauer and 
Pallone.
    Also Present: Representative Markey.

OPENING STATEMENT OF HON. WAYNE T. GILCHREST, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Good morning. The Subcommittee will come to 
order.
    Today we will hear testimony on the General Accounting 
Office's report entitled, ``Opportunities to Improve the 
Management and Oversight of Oil and Gas Activities on Federal 
Lands.''
    The report was written in response to a request submitted 
to GAO by myself and the gentleman from Massachusetts, 
Congressman Ed Markey. We made this inquiry because we felt 
there was a great deal of information lacking about oil and gas 
activities on National Wildlife Refuges. We wanted to know the 
extent of oil and gas activities, the legal authorities that 
permit them to occur, their environmental impacts on refuges, 
and we wanted an analysis of Fish and Wildlife Service 
resources being dedicated to this program.
    The General Accounting Office has now largely answered 
these questions and their analysis, findings and 
recommendations are contained within their August 2003 report, 
which is both balanced and informative.
    As a result of this report, we now know that there are 155 
National Wildlife Refuges with current or past oil and gas 
activities, and 34 with active oil and gas wells. The active 
wells produce only 1 percent of our Nation's oil production and 
less than one-half of 1 percent of our natural gas, but I have 
been concerned about the environmental impacts of this activity 
on refuges as well as the ongoing impacts of abandoned wells 
and other related infrastructure.
    Our National Wildlife Refuge System can support a 
responsible mineral extraction program and I am interested to 
hear an expanded description of GAO's report and 
recommendations to improve the current program. I am also 
interested in hearing how the Department of Interior plans to 
respond to the GAO recommendations and our discussion about how 
Congress may be able to help.
    Finally, in addition to our two witnesses, to maximize the 
value of this discussion, I wrote to each Member of the House 
who has an active oil and gas well in a refuge in their 
district to advise them of this hearing and to welcome their 
input.
    We look forward to your testimony this morning because, 
from the GAO report, as I said earlier in my statement, it 
looks as if the oil and/or gas extraction is done responsibly, 
it can be done to ensure the ecological integrity and the 
purposes upon which the refuges were created.
    We look forward to the testimony from GAO and Fish and 
Wildlife, and as a body, we would like to pursue a goal in 
which the most ideal practices and purposes of the refuge, 
practices of the oil and gas extraction and purposes of the 
refuges, can be blended and balanced.
    [The prepared statement of Mr. Gilchrest follows:]

       Statement of The Honorable Wayne T. Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Good morning, today, the Subcommittee will hear testimony on the 
General Accounting Office's report entitled ``Opportunities to Improve 
the Management and Oversight of Oil and Gas Activities on Federal 
Lands.''
    This report was written in response to a request submitted to GAO 
by myself and the gentleman from Massachusetts, Congressman Ed Markey. 
We made this inquiry because we felt there was a great deal of 
information lacking about oil and gas activities on national wildlife 
refuge lands. We wanted to know the extent of oil and gas activities, 
the legal authorities that permit them to occur, their environmental 
impacts on refuges, and we wanted an analysis of Fish and Wildlife 
Service resources being dedicated to this program.
    The General Accounting Office has now largely answered these 
questions and their analysis, findings and recommendations are 
contained within their August 2003 report which is both balanced and 
informative.
    As a result of this report, we now know that there are 155 national 
wildlife refuges with current or past oil and gas activities and 34 
with active oil and gas wells. The active wells produce only one 
percent of our nation's oil production and less than one-half of one 
percent of our natural gas, but I have been concerned about the 
environmental impacts of this activity on refuges, as well as the 
ongoing impacts of abandoned wells and other related infrastructure.
    Our National Wildlife Refuge System can support a responsible 
mineral extraction program and I am interested to hear an expanded 
description of GAO's report and recommendations to improve the current 
program. I am also interested in hearing, how the Department of the 
Interior plans to respond to the GAO recommendations and our discussion 
about how Congress may be able to help.
    Finally, in addition to our two witnesses, to maximize the value of 
this discussion, I wrote to each Member of the House who has an active 
oil and gas well in a refuge in their district to advise them of this 
hearing and to welcome their input.
    I now recognize the Ranking Member, the gentleman from New Jersey, 
Congressman Frank Pallone.
                                 ______
                                 
    Mr. Gilchrest. At this point I will recognize the Ranking 
Member, the gentleman from New Jersey, Mr. Pallone.

 OPENING STATEMENT OF HON. FRANK PALLONE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    First let me say that I commend both you and our colleague 
from Massachusetts, Mr. Markey, for your leadership in 
requesting this report from the GAO.
    To many people, including constituents in my district, the 
whole idea of oil and gas exploration in our National Wildlife 
Refuge System, our only national system of lands devoted 
exclusively for the protection of fish and wildlife, appears on 
its face to be a bizarre contradiction in terms. Certainly oil 
and gas development in the Arctic National Wildlife Refuge has 
been and remains a highly volatile issue within the conference 
concerning the pending energy bill.
    That said, and despite my own personal reservations about 
oil and gas activities actually being compatible and benign 
activities to impose on refuges, I welcome the opportunity for 
the GAO to fully investigate the scope and effects of these 
activities in a broader context.
    However, Mr. Chairman, after reading this report, I am left 
to ponder several questions. How can we even consider new 
development and production in ANWR when the characterization of 
environmental impacts of oil and gas activities across the 
refuge system remains so poorly understood and incomplete? How 
can we expect the Fish and Wildlife Service to provide adequate 
monitoring and oversight of these activities when their 
performance described by the GAO demonstrates a record of lax 
or indifferent enforcement?
    In addition, I am extremely concerned to learn that the 
Fish and Wildlife Service has failed on numerous occasions to 
complete the necessary environmental reviews and inspections, 
leading to the acquisition of substantial liabilities and costs 
for the environmental cleanup when it acquires new parcels for 
the refuge system.
    Mr. Chairman, any program suffering from a $1.8 billion 
operations and maintenance budget backlog simply cannot afford 
the luxury of cleaning up someone else's mess. And this is just 
a short list, for there are a lot of other concerns. I look 
forward to hearing from our witnesses to learn more about the 
GAO's work and to hear arguments from the Fish and Wildlife 
Service in rebuttal.
    The status quo as described by the GAO is unacceptable, and 
I think that's clear. I am confident, Mr. Chairman, that in 
working with you and Congressman Markey, we can develop a 
sensible body of recommendations for legislation to address 
these deficiencies and protect the environmental integrity of 
our National Wildlife Refuge. I look forward to those 
discussions.
    Thanks again.
    Mr. Gilchrest. I thank the gentleman from New Jersey.
    The gentleman from Louisiana, Mr. Tauzin.

 STATEMENT OF HON. W.J. ``BILLY'' TAUZIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Tauzin. Thank you, Mr. Chairman.
    Obviously, because Louisiana is the site of many of the 
National Wildlife Reserves that are subject to exploration and 
development, we have a great interest in this report. Most 
importantly, Senator Breaux and I have had a great interest in 
this subject over the years.
    What we have learned from this report, of course, is that 
production on Federal lands produces nearly 24 million barrels 
of oil and 88 million cubic feet of gas, valued at almost a 
billion dollars. I'm not surprised that some of my colleagues 
are surprised at that. They think, when we debate the ANWR, 
that suddenly that's a brand new idea that we can have 
production in environmentally sensitive areas and at the same 
time protect those areas from ill consequences of that 
activity.
    The study, for example, does not support the notion that 
oil and gas, per se, production is harmful to the refuges. It 
finds, however, that inconsistent management of oil and gas 
activities can and obviously will cause problems unless we have 
consistent management of those activities.
    I should point out, for example, to the Committee that in 
one National Wildlife Refuge in Louisiana, in north Louisiana, 
there are 1,120 wells operating, and that the majority of these 
developments do occur in wildlife refuges in our home State. As 
I have often pointed out on the Floor, my friend, we have 
literally balanced those questions of production for the 
Nation's good against preservation of the resources in those 
areas for many years. So I suspect you can and should learn a 
lot about our experiences in this area.
    For example, in the year 2000, John Breaux and I concurred 
in language that was adopted in statute that provides that 
funds received from the Wildlife and Fisheries Service from 
responsible parties heretofore and hereafter, for site-specific 
damages in the national system, go right back into complete 
assessments, mitigation, restoration, and monitoring and site 
recovery of any damages. We have been on this problem a long 
time, but we're glad to have you on board with us.
    The report, for example, also points out that Louisiana 
long ago prohibited using open pits to store production waste 
and brine in coastal areas. We prohibit discharging brine into 
drainages within our State. There are been massive little 
changes in Texas and Louisiana in the way in which these sites 
have been managed with new moneys provided, as I said, in the 
legislation to help manage those resources over the years.
    It's interesting that many properties that are part of the 
National Wildlife System were acquired after oil and gas 
production activities have taken place. Those beautiful natural 
wildlife areas have been added to our system even after 
production occurred there, testifying to the fact that post-
production sites are still considered extraordinarily valuable 
for the National Wildlife System.
    Obviously, the report indicates that you can have impacts 
from any spills or any kind of damages that result from those 
spills in refuges, and that we constantly must be aware of 
making sure resources, as we have in the year 2000, are 
available to quickly mitigate them, as they are when spills 
occur in your own State or backyard when there is any kind of 
damage to a pipeline system or to any activities in your home 
States regarding the use of those petroleum products in the 
businesses and homes of your State.
    So the point the study makes is one we have made for a long 
time: that it is not incompatible to have oil and gas 
development in wildlife refuges. On the contrary, it's been 
going on for a long, long time.
    Second, those of us who have had experience with it have 
learned over the years how literally to balance those concerns 
quite effectively and how to mitigate and provide for any 
unforeseen consequences of any of those activities, as they're 
likely to occur anywhere in this country.
    Finally, that we in Texas and Louisiana are constantly 
updating our own laws and provisions to make sure those 
activities continue to be performed in a way that's compatible 
with the natural aesthetics and value of those wildlife 
resources.
    I can also tell you that in Louisiana, as a member of the 
State legislature, we dedicated a great deal of the royalties 
received in our State from minerals produced from State lands 
and water bottoms, similarly protected as our National Wildlife 
Reserves, and have dedicated them to wildlife preservation and 
to protection and enhancement of those State lands and water 
bottoms that are subject to production.
    So we have some experience here. I hope you learn from us. 
Out of that experience, I hope you will come to a different 
view about what might be possible in land way over in Alaska 
that represents less than one one-hundredth of 1 percent of the 
entire Alaskan National Wildlife Reserve that was set aside for 
production and development. But for some reason, none of you 
can come to the conclusion that we should proceed with it.
    I thank you, Mr. Chairman, and yield back.
    Mr. Gilchrest. Thank you, Mr. Tauzin.
    Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman.
    I just wanted to ask unanimous consent to submit for the 
record a statement by Defenders of Wildlife.
    Mr. Gilchrest. Without objection.
    [The Defenders of Wildlife statement submitted for the 
record follows:]

    Statement of the Defenders of Wildlife submitted for the record 
                     by The Honorable Frank Pallone

OIL AND GAS DRILLING HARMING NATIONAL WILDLIFE REFUGES ACTION NEEDED TO 
                    RESPOND TO LONG-STANDING PROBLEM

    A new report from the General Accounting Office confirms the 
findings of earlier federal reports that oil and gas activity has 
caused serious damage on many of the national wildlife refuges where it 
has occurred. According to the report (``National Wildlife Refuges: 
Opportunities to Improve the Management and Oversight of Oil and Gas 
Activities on Federal Lands'') oil and gas activity has spilled 
hundreds of thousands of gallons of crude oil, caused mercury and PCB 
contamination, killed wildlife and thousands of fish, destroyed and 
fragmented thousands of acres of habitat, produced millions of gallons 
of brine, and caused long-term soil and water contamination on national 
wildlife refuges.
    The GAO report is not the first study to conclude that oil and gas 
activity is causing damage to national wildlife refuges. Previous 
federally sponsored reports dating back two decades have identified 
problems associated with oil and gas activities in or near refuges (see 
attached list and selected findings). The new report makes it very 
clear that the Interior Department and U.S. Fish and Wildlife Service 
have failed to respond adequately to earlier reports or to adopt their 
recommendations for improving oversight and regulation of oil and gas 
activity on national wildlife refuges.
    The vast majority of oil and gas activity that occurs on national 
wildlife refuges is related to extraction of private mineral rights 
that the federal government does not own and to which it cannot deny 
access. However, the GAO concludes that the Fish and Wildlife Service 
does have certain authority to regulate this use so as to protect 
refuge wildlife and habitats but is not making use of this authority. 
Unlike the National Park Service and U.S. Forest Service, Fish and 
Wildlife Service regulations do not require owners of mineral rights to 
obtain permits that contain protective conditions before engaging in 
oil and gas activities on the federal lands that it manages. Congress 
should take action to affirm the Fish and Wildlife Service's authority 
to require permits of oil and gas operators-and conditions to protect 
fish and wildlife-where private parties own and hold rights to develop 
oil and gas beneath refuge lands.
    The GAO report provides a preview of the kinds of environmental 
damage that could be expected at the Arctic National Wildlife Refuge if 
Congress authorizes oil drilling in that pristine refuge in 
northeastern Alaska. Congress should take careful note of this report 
and continue to resist proposals to open the Arctic Refuge to drilling.
    For more information, contact Jim Waltman at (202) 429-2674 or jim 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1c6b7d7068717d725c686b6f32736e7b">[email&#160;protected]</a>

Previous Reports Relating to Oil and Gas Activity at National Wildlife 
        Refuges

Secondary Uses Occurring on National Wildlife Refuges, 1990
    According to this report from the U.S. Fish and Wildlife Service, 
63 percent of all refuge managers reported that at least one 
``harmful'' activity occurred on the refuges they managed. The report 
identified 30 wildlife refuges at which the refuge manager indicated 
that oil/gas extraction ``adversely affect[ed] the ability to conserve 
or manage in accordance with the refuge goals and objectives.'' 
Examples included Kern National Wildlife Refuge (California) where the 
activity caused ``habitat destruction, wildlife disturbance, endangered 
species take threat.'' According to the report, oil and gas activity 
caused ``surface and habitat impacts and disturbance to wildlife 
including whooping cranes'' at Aransas NWR (Texas) and ``tremendous 
vegetative loss, increases erosion, nesting losses during the nesting 
season'' at Breton NWR (Louisiana).

Continuing Problems with Incompatible Uses Call for Bold Action, 1989
    According to this study from the General Accounting Office, refuge 
managers reported that at least one harmful use was occurring on 59 
percent of the refuges. The GAO highlighted gas production at D'Arbonne 
NWR (Louisiana) as one of 16 particularly harmful activities in the 
Refuge System. According to the report ``Salt water contamination from 
gas production continues to erode the habitat's capability to support 
wildlife... Natural gas production has destroyed wildlife habitat 
through soil and water contamination by brine.''

Contaminant Issues of Concern: National Wildlife Refuges, 1986
    This report from the U.S. Fish and Wildlife Service identified 78 
``contaminant issues of concern'' on 85 refuges. The report determined 
that at the Kenai Refuge (Alaska), ``oil and gas spills from various 
oil companies have been occurring for approximately 25 years. Also, 
numerous spills of substances used in oil field production and 
subsequently discharged into drill mud reserve pits may have affected 
local water supplies. These substances may represent sources of 
possible chronic and acute problems impacting fish and wildlife 
resources.''

Fish and Wildlife Service Resource Problems, 1983
    This report from the U.S. Fish and Wildlife Service identified 146 
national wildlife refuges where oil spills and 97 refuges where oil and 
gas extraction were ``currently causing or have the potential to cause 
significant damage to Fish and Wildlife Service managed natural 
resources or physical facilities.'' The findings were based on 
information submitted by refuge managers, wildlife biologists, and 
other refuge employees.
    It is unfortunate that the GAO has again found significant problems 
associated with oil and gas activity on national wildlife refuges. This 
is a clear indication that the Fish and Wildlife Service has not taken 
adequate action to address what it has known for decades is a very real 
problem.
    For more information, contact Jim Waltman at (202) 429-2674 or jim 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e697f726a737f705e6a696d30716c79">[email&#160;protected]</a>
                                 ______
                                 
    Mr. Gilchrest. I ask unanimous consent to submit a 
statement, an editorial from USA Today on the GAO report, 
October 30th, 2003.
    [The USA Today articles follow:]

                   USA TODAY EDITORIAL ON GAO REPORT
               submitted for the record, october 30, 2003
                       21posted 10/8/2003 7:56 pm

          Alaskan drilling debate ignores failures in lower 48

    For years, environmentalists and the oil industry have waged a 
fierce battle over the impact of oil drilling in wildlife refuges. 
Environmentalists say it causes devastating damage; the industry says 
wildlife and drilling can thrive together.
    Now a new report by the investigative arm of Congress shows that 
both sides are exaggerating the facts. The General Accounting Office's 
analysis of drilling in hundreds of refuges in the lower 48 states 
concludes that environmental damage can be avoided--at least when 
industry and the government are vigilant.
    Yet too often the U.S. Fish and Wildlife Service, which is charged 
with protecting refuges, has fallen down on the job. Its failings are 
important to keep in mind as Congress wrangles over allowing drilling 
in the Arctic National Wildlife Refuge as part of an energy plan that 
also includes efforts to strengthen the nation's electricity grid.
    The results documented by Congress' own investigators suggest a 
reasonable course for protecting the spectacular Alaskan mountains and 
sensitive tundra where caribou, wolves, bears and other species live. 
Once federal regulators demonstrate they can adequately protect 
sensitive refuges where drilling already is occurring, expanding oil 
exploration to the Arctic becomes an option worth considering.
    As the Sept. 23 GAO report points out, the government's track 
record on that front is uneven. At Hopper Mountain Wildlife Refuge in 
California, for example, 15 active wells have caused only two oil 
spills in the past 30 years; each was cleaned up quickly with no 
detectable effects on wildlife. But at Anahuac Wildlife Refuge in 
Texas, 50 active wells have caused at least seven spills just since 
1991, and one killed more than 180,000 fish.
    Among the federal shortcomings cited by the congressional report:
    <bullet>  The Fish and Wildlife Service didn't even know how many 
oil and gas wells are operating on its refuges. GAO investigators found 
one-fourth of the nation's more than 500 refuges have a history of oil 
and gas activity, in some cases dating back to the 1920s. Wells on 
refuges are pumping nearly 24 million barrels of oil annually, more 
than 1 % of the nation's total production.
    <bullet>  The Fish and Wildlife Service does not keep records on 
oil spills and other damage, and has never assessed the cumulative 
effects of oil and gas operations on refuges.
    <bullet>  Fish and Wildlife refuge managers often lack the 
knowledge, resources, training and commitment to regulate oil-drilling 
operations effectively.
    The Fish and Wildlife Service says it lacks legal authority in some 
cases to act against oil companies that were given rights to extract 
mineral resources from lands long before wildlife refuges were 
established.
    The Service also says it is moving to do a better job of collecting 
data and equipping its staff to deal with oil and gas operations.
    One successful approach worth the service's attention is taking 
place in Louisiana, where two refuges are strictly monitored. Oil and 
gas operators pay fees to finance the costs of monitoring compliance. 
The system could be applied elsewhere, though new laws would be 
required in many cases.
    Before the federal government takes any steps to open the pristine 
Arctic refuge to drilling, it can show it is capable of protecting the 
wildlife already in its charge.
Sidebar:
Nature and drilling coexist
    National wildlife refuges with the most active oil wells:
        Upper Quachita, Louisiana: 908
        Delta, Louisiana: 178
        Kenai, Alaska: 121
        Hageman, Texas: 98
        McFaddin, Texas: 76
        Low Rio Grande Valley, Texas: 65
        St. Catherine Creek, Mississippi: 64
        D'Arbonne, Louisiana: 51
        Quivira, Kansas: 51
        Anahuac, Texas: 50
        Hopper Mountain, California: 15
        Seal Beach, California: 15
        Aransas, Texas: 14
        Ohio River Island, West Virginia: 11

    Source: Congress' General Accounting Office
                                 ______
                                 
                               USA TODAY
                        posted 10/8/2003 8:00 pm

                         Agency values refuges

                           by steven williams

    The National Wildlife Refuge System is one of America's great 
treasures. Its 542 refuges provide homes for wildlife, solitude and 
unfettered natural beauty for visitors in an increasingly crowded and 
busy world.
    President Bush has a made a firm commitment to ensure their future 
health. His proposed $402 million budget for the refuge system 
represents a 25% increase since 2002 and more than double the 1997 
budget.
    As Congress' General Accounting Office notes in its report, 
however, about one-quarter of refuges have oil and gas operations on 
them, some dating back more than 70 years. In most cases, the U.S. Fish 
and Wildlife Service owns the surface land but not the subsurface 
mineral rights. Under the law, owners of these rights have the right of 
access to them. Refuge managers work with these owners to minimize the 
adverse impacts of these activities, but we still face challenges. We 
welcome the recommendations provided by the GAO in its report.
    We are committed to collecting better data on the impacts of oil 
and gas activities on refuges. We also will issue guidance and more 
training opportunities for refuge staff on the management of oil and 
gas activities.
    In the few places where the service has authority to issue permits, 
we will look for ways to strengthen that authority consistent with 
state and federal laws. At the same time, we are addressing other 
threats to our refuges, including the damage caused by growing numbers 
of invasive species.
    Some have tried to use the GAO report to argue against oil 
exploration on a small part of Alaska's Arctic National Wildlife 
Refuge. However, the comparison is not valid because the federal 
government owns the mineral rights at the Arctic refuge. When it set 
aside a portion of the refuge, Congress explicitly reserved for itself 
how and under what conditions oil exploration might occur there. Any 
exploration would be subject to far stricter environmental safeguards 
than allowed by law on most refuges with oil and gas activities.
    Americans cherish our wildlife and wild places. We are working to 
ensure that the National Wildlife Refuge System continues to be healthy 
and whole.
    Steven Williams is director of the U.S. Fish and Wildlife Service.
                                 ______
                                 
    Mr. Gilchrest. This morning we have Mr. Barry Hill, 
Director, Natural Resources and Environment, from GAO. Welcome, 
sir.
    We have Mr. David Smith, Deputy Assistant Secretary for 
Fish and Wildlife and Parks, Department of the Interior. 
Welcome, Mr. Smith. And Mr. Smith is accompanied by Mr. William 
Hartwig, Chief of National Wildlife Refuge System of the U.S. 
Fish and Wildlife Service.
    Thank you for coming this morning, gentlemen. We look 
forward to your testimony.
    Mr. Hill, you may begin.

  STATEMENT OF BARRY T. HILL, DIRECTOR, NATURAL RESOURCES AND 
  ENVIRONMENT, GENERAL ACCOUNTING OFFICE; ACCOMPANIED BY PAUL 
        AUSSENDORF, ANALYST IN CHARGE OF THE GAO REPORT

    Mr. Hill. Thank you, Mr. Chairman, and members of the 
Subcommittee. Before I begin, allow me to introduce my 
colleague. With me today is Paul Aussendorf, who is the analyst 
in charge of the work that we will be presenting today. If I 
may, I would like to briefly summarize my prepared statement 
and submit the full text of my statement for the record.
    Mr. Gilchrest. Without objection.
    Mr. Hill. We are pleased to be here today to discuss our 
recent report on oil and gas activities on National Wildlife 
Refuges. The National Wildlife Refuge System is unique. It's 95 
million acres are the only Federal lands managed primarily for 
the benefit of wildlife, providing habitat for native plants 
and animals, including endangered and threatened species.
    While the Federal Government owns almost all of the surface 
lands of the System, in many cases it does not own the 
subsurface mineral rights. Subject to some restriction, owners 
of the subsurface mineral rights have the legal authority to 
explore for mineral resources such as oil and gas, and if such 
resources are found, to extract them.
    The testimony we will be presenting today summarizes our 
recent report to you in which we determined the nature and full 
extent of oil and gas activities in the National Wildlife 
Refuge System, identified environmental effects of oil and gas 
activities on refuge resources, and assessed the Fish and 
Wildlife Service's management and oversight of these 
activities.
    In summary, about one-quarter, or 155 of the 575 refuges in 
the United States, have past or present oil and gas activity, 
some dating to at least the 1920s. Activities on these refuges 
range from exploration to drilling and production to pipelines 
transiting refuge lands. One-hundred and five refuges contain 
over 4,400 oil and gas wells, and 2,600 of these are inactive 
wells, and 1,806 are active.
    The active wells are located at 36 refuges and produce oil 
and gas valued at $880 million during the last 12-month 
reporting period. That is roughly 1 percent of domestic 
production. In addition, oil and gas exploration has occurred 
at 44 refuges since 1994, and one or more active pipelines are 
present in at least 107 refuges.
    Regarding the overall environmental effects of oil and gas 
activities on refuge resources, we found that the Fish and 
Wildlife Service has only limited information and has not 
conducted any assessments of the cumulative environmental 
effects. Available studies, anecdotal information and our 
observation show that the environmental effects of oil and gas 
activities and the associated construction, operation and 
maintenance of the infrastructure on wildlife and habitat, vary 
in severity, duration and visibility. The environmental effects 
range from infrequent small oil spills and minimal debris from 
abandoned infrastructure to large and chronic spills and large-
scale industrial development. Specifically, the 16 refuges we 
visited during our study reported oil, gas or brine spills, but 
the frequency and effects of the spills varied widely.
    Over the years, new environmental laws and industry 
practice and technology have reduced but not eliminated some of 
the most detrimental effects of oil and gas activities. In 
addition, oil and gas operators have taken steps, in some cases 
voluntarily, to reverse damages resulting from oil and gas 
activities. But operators have not consistently taken such 
steps and the adequacy of these steps is not known.
    Finally, the management and oversight of oil and gas 
activities on refuges varies widely. Among the 16 refuges we 
visited, some identify oil and gas activities and the risks 
they pose to refuge resources, issue permits that direct 
operators to minimize the effect of their activities on the 
refuge, monitor oil and gas activities with trained personnel, 
and charge mitigation fees or pursue legal remedies if damage 
occurs. Other refuges have fewer or none of these controls in 
place.
    We identified two primary reasons for this variation. 
First, refuge managers are unclear about when they have legal 
authority to require operators to obtain permits with 
conditions to protect refuge resources. This uncertainty exists 
because the Service's authority varies, depending upon when 
ownership of the mineral rights was separated from ownership of 
the surface property, which can be difficult to determine. In 
addition, the Department of the Interior has not determined its 
permitting authority in all cases.
    Second, refuge managers lack sufficient guidance, resources 
and training to properly manage and oversee oil and gas 
activities. Only three refuges have staff dedicated to monitor 
these activities, and some staff cited lack of time or lack of 
training as limiting their management and oversight 
capabilities.
    In our report, we made several recommendations to improve 
the framework for managing and overseeing oil and gas 
activities on National Wildlife Refuges. However, the 
Department of Interior generally disagreed or did not comment 
on our recommendations.
    Mr. Chairman, this concludes my prepared statement. We 
would be happy to respond to any questions you may have.
    [The prepared statement of Mr. Hill follows:]

      Statement of Barry T. Hill, Director, Natural Resources and 
              Environment, U.S. General Accounting Office

[GRAPHIC] [TIFF OMITTED] T0158.001


    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss our recent report on oil 
and gas activities on national wildlife refuges, which we prepared at 
your request. <SUP>1</SUP> The National Wildlife Refuge System is 
unique in that the 95 million acres of land in the system are the only 
federal lands managed primarily for the benefit of wildlife, providing 
habitat for native plants and animals, including endangered or 
threatened species, as well as important way points for migrating 
species, such as ducks, cranes, and eagles. While the federal 
government owns almost all of the surface lands in the system, it does 
not, in many cases, own the subsurface mineral rights. Subject to some 
restriction, owners of subsurface mineral rights have the legal 
authority to explore for mineral resources such as oil and gas and, if 
such resources are found, to extract them. As you know, in our recent 
report, we (1) determined the nature and full extent of oil and gas 
activities in the National Wildlife Refuge System, (2) identified 
environmental effects of oil and gas activities on refuge resources, 
and (3) assessed the Fish and Wildlife Service's management and 
oversight of these activities.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, National Wildlife Refuges: 
Opportunities to Improve the Management and Oversight of Oil and Gas 
Activities on Federal Lands, GAO-03-517 (Washington, D.C.: Aug. 28, 
2003).
---------------------------------------------------------------------------
    To obtain a more complete understanding of the extent of past and 
present oil and gas activities within current wildlife refuge 
boundaries, we used National Geographic information databases to 
determine how many documented oil and gas wells and transit pipelines 
were located within or immediately proximate to refuge boundaries. We 
also used Fish and Wildlife Service records to identify other evidence 
of oil and gas activities. Premier Data Services, a firm with extensive 
experience in computer-based geographic information systems and oil and 
gas leasing, aided our data acquisition and analysis.
    In summary, we found the following:
    <bullet>  About one-quarter (155 of 575) of all refuges have past 
or present oil and gas activity, some dating to at least the 1920s. 
Activities range from exploration to drilling and production to 
pipelines transiting refuge lands. One hundred five refuges contain a 
total of 4,406 oil and gas wells--2,600 inactive wells and 1,806 active 
wells. The 1,806 wells, located at 36 refuges, produced oil and gas 
valued at $880 million during the last 12-month reporting period, 
roughly 1 percent of domestic production. In addition, oil and gas 
exploration has occurred at 44 refuges since 1994, and 1 or more active 
pipelines are present in at least 107 refuges, 35 of which do not have 
any other oil and gas activity.
    <bullet>  The Fish and Wildlife Service has not conducted any 
assessments of the cumulative environmental effects of oil and gas 
activities on refuge resources. Available studies, anecdotal 
information, and our observations show that the environmental effects 
of oil and gas activities and the associated construction, operation, 
and maintenance of the infrastructure on wildlife and habitat vary in 
severity, duration, and visibility. For example, the environmental 
effects range from infrequent small oil spills and minimal debris from 
abandoned infrastructure to large and chronic spills and large-scale 
industrial development. Some damage, such as habitat loss from 
infrastructure development, may last indefinitely, while other damage, 
such as wildlife disturbance from exploration, is of shorter duration. 
While certain types of damages are readily visible, others, such as 
changes in hydrology or habitat conditions, are more difficult to 
quantify or to link solely to oil and gas activities. Over the years, 
new environmental laws and industry practice and technology have 
reduced, but not eliminated, some of the most detrimental effects of 
oil and gas activities. In addition, oil and gas operators have taken 
steps, in some cases voluntarily, to reverse damages resulting from oil 
and gas activities, but operators have not consistently taken such 
steps, and the adequacy of these steps is not known. The Fish and 
Wildlife Service does not have a complete and accurate record of spills 
and other damage resulting from refuge-based oil and gas activities, 
has conducted few studies to quantify the extent of damage, and 
therefore does not know its full extent or the steps needed to reverse 
it.
    <bullet>  Federal management and oversight of oil and gas 
activities varies widely among refuges. Some refuges identify oil and 
gas activities and the risks they pose to refuge resources, issue 
permits that direct operators to minimize the effect of their 
activities on the refuge, monitor oil and gas activities with trained 
personnel, and charge mitigation fees or pursue legal remedies if 
damage occurs. Other refuges have fewer or none of these controls in 
place. We identified two primary reasons for this variation. First, the 
Fish and Wildlife Service's legal authority to require operators to 
obtain permits with conditions to protect refuge resources varies 
considerably, depending upon the nature of the mineral rights. Second, 
refuge managers lack sufficient guidance, resources, and training to 
properly manage and oversee oil and gas activities.
Background
    Over the years, we and others have examined the effects on the 
refuge system of secondary activities, <SUP>2</SUP> such as recreation, 
military activities, and oil and gas activities--which include oil and 
gas exploration, drilling and production, and transport. Exploring for 
oil and gas involves seismic mapping of the subsurface topography. 
Seismic mapping requires surface disturbance, often involving small 
dynamite charges placed in a series of holes, typically in patterned 
grids. Oil and gas drilling and production often requires constructing, 
operating, and maintaining industrial infrastructure, including a 
network of access roads and canals, local pipelines to connect well 
sites to production facilities and to dispose of drilling wastes, and 
gravel pads to house the drilling and other equipment. In addition, 
production may require storage tanks, separating facilities, and gas 
compressors. Finally, transporting oil and gas to production facilities 
or to users generally requires transit pipelines.
---------------------------------------------------------------------------
    \2\ U.S. General Accounting Office, National Wildlife Refuges: 
Continuing Problems with Incompatible Uses Calls for Bold Action, GAO/
RCED-89-196 (Washington, D.C.: Sept. 8, 1989).
---------------------------------------------------------------------------
    Department of the Interior regulations generally prohibit the 
leasing of federal minerals underlying refuges. <SUP>3</SUP> In 
addition, under the National Wildlife Refuge System Administration Act 
of 1966, as amended, the Fish and Wildlife Service (FWS) is responsible 
for regulating all activities on refuges. The Act requires FWS to 
determine the compatibility of activities with the purposes of the 
particular refuge and the mission of the refuge system and not allow 
those activities deemed incompatible. <SUP>4</SUP> FWS does not apply 
the compatibility requirement to the exercise of private mineral rights 
on refuges. However, the activities of private mineral owners on 
refuges are subject to a variety of other legal restrictions under 
federal law. <SUP>5</SUP> For example, the Endangered Species Act of 
1973 prohibits the ``take'' of any endangered or threatened species and 
provides for penalties for violations of the act; <SUP>6</SUP> the 
Migratory Bird Treaty Act prohibits killing, hunting, possessing, or 
selling migratory birds, except in accordance with a permit; 
<SUP>7</SUP> and the Clean Water Act prohibits discharging oil and 
other harmful substances into waters of the United States and imposes 
liability for removal costs and damages resulting from a discharge. 
<SUP>8</SUP> Also, FWS regulations require that oil and gas activities 
be performed in a way that minimizes the risk of damage to the land and 
wildlife and disturbance to the operation of the refuge. The 
regulations also require that land affected be reclaimed after 
operations have ceased. <SUP>9</SUP>
---------------------------------------------------------------------------
    \3\ Department of the Interior regulations allow leasing of federal 
minerals underlying refuges in the state of Alaska and in cases where 
federal minerals are being drained by operations on property adjacent 
to the refuge.
    \4\ 16 U.S.C. Sec. Sec. 668dd(a), (d).
    \5\ State laws also may affect the conduct of oil and gas 
activities.
    \6\ 16 U.S.C. Sec. Sec. 1538, 1540. The term ``take'' means to 
harass, harm, pursue, hunt, shoot, wound, kills, trap, capture, or 
collect. 16 U.S.C. Sec. 1532(19).
    \7\ 16 U.S.C. Sec. 703.
    \8\ 33 U.S.C. Sec. 1321(b).
    \9\ 50 C.F.R Sec. 29.32.
---------------------------------------------------------------------------
One Quarter of Refuges Have Past or Present Oil and Gas Activities
    At least one-quarter, or 155, of the 575 refuges (538 refuges and 
37 wetland management districts) that constitute the National Wildlife 
Refuge System have past or present oil and gas activities--exploration, 
drilling and production, transit pipelines, or some combination of 
these (see table 1). <SUP>10</SUP> Since 1994, FWS records show that 44 
refuges have had some type of oil and gas exploration activities--
geologic study, survey, or seismic mapping. We also identified at least 
107 refuges with transit pipelines. These pipelines are almost 
exclusively buried, vary in size, and carry a variety of products, 
including crude oil, refined petroleum products, and high-pressure 
natural gas. Transit pipelines may also have associated storage 
facilities and pumping stations, but data are not available to identify 
how many of these are on refuges.
---------------------------------------------------------------------------
    \10\ This analysis does not include coordination areas, which are 
managed by states, or conservation easements, which are not owned by 
FWS.
[GRAPHIC] [TIFF OMITTED] T0158.002


    Over 4,400 oil and gas wells are located within 105 refuges. 
Although refuges with oil and gas wells are present in every FWS 
region, they are more heavily concentrated near the Gulf Coast of the 
United States. About 4 out of 10 wells (41 percent) located on refuges 
were known to be actively producing oil or gas or disposing of produced 
water during the most recent 12-month reporting period, as of January 
2003. Of the 105 refuges with oil and gas wells, 36 refuges have 
actively producing wells. The remaining 2,600 wells did not produce 
oil, gas, or water during the last 12 months; many of these were 
plugged and abandoned or were dry holes. <SUP>11</SUP> During the most 
recent 12-month reporting period, the 1,806 active wells produced 23.7 
million barrels of oil and 88,171 million cubic feet of natural gas, 
about 1.1 and 0.4 percent of total domestic oil and gas production, 
respectively. Based on 2001 average prices, refuge-based production had 
an estimated total commercial value of $880 million.
---------------------------------------------------------------------------
    \11\ Wells that are plugged and abandoned are permanently sealed by 
cementing the well bore. Improperly plugged wells can intrude on fresh 
water supplies or cause fires and seepage.
---------------------------------------------------------------------------
    Substantial oil and gas activities also occur outside but near 
refuge boundaries. An additional 4,795 wells and 84 transit pipelines 
reside within one-half mile of refuge boundaries. The 4,795 wells bound 
123 refuges, 33 of which do not have any resident oil and gas wells. 
The 84 pipelines border 42 different refuges. While FWS does not own 
the land outside refuge boundaries, lands surrounding refuges may be 
designated for future acquisition.

Overall Effects of Oil and Gas Activities Are Unknown, but Those 
        Activities Have Diminished Some Refuge System Resources
    The overall environmental effects of oil and gas activities on 
refuge resources are unknown because FWS has conducted few cumulative 
assessments and has no comprehensive data. Available studies, anecdotal 
information, and our observations show that some refuge resources have 
been diminished to varying degrees by spills of oil, gas, and brine 
<SUP>12</SUP> and through the construction, operation, and maintenance 
of the infrastructure necessary to extract oil and gas. The damage 
varies widely in severity, duration, and visibility, ranging from 
infrequent small oil spills and industrial debris with no known effect 
on wildlife, to large and chronic spills causing wildlife deaths and 
long-term soil and water contamination. Some damage, such as habitat 
loss because of infrastructure development and soil and water 
contamination, may last indefinitely while other damage, such as 
wildlife disturbance during seismic mapping, is of shorter duration. 
Also, while certain types of damage are readily visible, others, such 
as groundwater contamination, changes in hydrology, and reduced habitat 
quality from infrastructure development are difficult to observe, 
quantify, and associate directly with oil and gas activities. Finally, 
oil and gas activities on refuges may hinder public access to parts of 
the refuge or FWS's ability to manage or improve refuge habitat, such 
as by conducting prescribed burns or creating seasonal wetlands.
---------------------------------------------------------------------------
    \12\ Brine is water mixed with salts, other minerals, and oil.
---------------------------------------------------------------------------
    The 16 refuges we visited reported oil, gas, or brine spills, 
although the frequency and effects of the spills varied widely. Oil and 
gas spills can injure or kill wildlife by destroying the insulating 
capacity of feathers and fur, depleting oxygen available in water, or 
exposing wildlife to toxic substances. Brine spills can be lethal to 
young waterfowl, damage birds' feathers, kill vegetation, and decrease 
nutrients in water. Even small spills may contaminate soil and 
sediments if they occur frequently. For instance, a study of 
Atchafalaya and Delta National Wildlife Refuges in Louisiana found that 
oil contamination present near oil and gas facilities is lethal to most 
species of wildlife, even though refuge staff were not aware of any 
large spills. <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ North Carolina State University, Department of Environmental 
and Molecular Toxicology, Chemical Contamination at National Wildlife 
Refuges in the Lower Mississippi River Ecosystem, February 2001, for 
the U.S. Department of the Interior.
---------------------------------------------------------------------------
    Constructing, operating, and maintaining the infrastructure 
necessary to produce oil and gas can harm wildlife by reducing the 
quantity and quality of habitat. Infrastructure development can reduce 
the quality of habitat through fragmentation, which occurs when a 
network of roads, canals, and other infrastructure is constructed in 
previously undeveloped areas of a refuge. Fragmentation increases 
disturbances from human activities, provides pathways for predators, 
and helps spread nonnative plant species. For example, officials at 
Anahuac and McFaddin National Wildlife Refuges in Texas said that 
disturbances from oil and gas activities are likely significant and 
expressed concern that bird nesting may be disrupted. However, no 
studies have been conducted at these refuges to determine the effect of 
these disturbances. Infrastructure networks can also damage refuge 
habitat by changing the hydrology of the refuge ecosystem, particularly 
in coastal areas. In addition, industrial activities associated with 
extracting oil and gas have been found to contaminate wildlife refuges 
with toxic substances such as mercury and polychlorinated biphenyls 
(PCBs). Mercury and PCBs were used in equipment such as compressors, 
transformers, and well production meters, although generally they are 
no longer used.
    New environmental laws and industry practice and technology have 
reduced, but not eliminated, some of the most detrimental effects of 
oil and gas activities. For example, Louisiana now generally prohibits 
using open pits to store production wastes and brine in coastal areas 
and discharging brine into drainages or state waters. Also, 
improvements in technology may allow operators to avoid placing wells 
in sensitive areas such as wetlands. However, oil and gas 
infrastructure continues to diminish the availability of refuge habitat 
for wildlife, and spills of oil, gas, and brine that damage fish and 
wildlife continue to occur. In addition, several refuge managers 
reported that operators do not always comply with legal requirements or 
follow best industry practices, such as constructing earthen barriers 
around tanks to contain spills, covering tanks to protect wildlife, and 
removing pits that temporarily store fluids used during well 
maintenance.
    Oil and gas operators have taken steps, in some cases voluntarily, 
to reverse damages resulting from oil and gas activities, but operators 
have not consistently taken such steps, and the adequacy of these steps 
is not known. For example, an operator at McFaddin National Wildlife 
Refuge removed a road and a well pad that had been constructed to 
access a new well site and restored the marsh damaged by construction 
after the well was no longer needed. In contrast, in some cases, 
officials do not know if remediation following spills is sufficient to 
protect refuge resources, particularly for smaller oil spills or spills 
into wetlands.
    FWS does not have a complete and accurate record of spills and 
other damage resulting from refuge-based oil and gas activities, has 
conducted few studies to quantify the extent of damage, and therefore 
does not know its full extent or the steps needed to reverse it. The 
lack of information on the effects of oil and gas activities on refuge 
wildlife hinders FWS's ability to identify and obtain appropriate 
mitigation measures and to require responsible parties to address 
damages from past activities. Lack of sufficient information has also 
hindered FWS's efforts to identify all locations with past oil and gas 
activities and to require responsible parties to address damages. FWS 
does not know the number or location of all abandoned wells and other 
oil and gas infrastructure or the threat of contamination they pose 
and, therefore, its ability to require responsible parties to address 
damages is limited. However, in cases where FWS has performed studies, 
the information has proved valuable. For example, FWS funded a study at 
some refuges in Oklahoma and Texas to inventory locations containing 
oil and gas infrastructure, to determine if they were closed legally, 
and to document their present condition. FWS intends to use this 
information to identify cleanup options with state and federal 
regulators. If this effort is successful, FWS may conduct similar 
studies on other refuges.

FWS Management and Oversight of Oil and Gas Activities Varies Widely
    FWS's management and oversight of oil and gas activities varies 
widely among refuges. Management control standards for federal agencies 
require federal agencies to identify risks to their assets, provide 
guidance to mitigate these risks, and monitor compliance. <SUP>14</SUP> 
For FWS, effectively managing oil and gas activities on refuges would 
entail, at a minimum, identifying the extent of oil and gas activities 
and their attendant risks, developing procedures to minimize damages by 
issuing permits with conditions to protect refuge resources, and 
monitoring the activities with trained staff to ensure compliance and 
accountability. However, the 16 refuges we visited varied widely in the 
extent to which these management practices occur. Some refuges identify 
oil and gas activities and the risks they pose to refuge resources, 
issue permits that direct operators to minimize the effect of their 
activities on the refuge, monitor oil and gas activities with trained 
personnel, and charge mitigation fees or pursue legal remedies if 
damage occurs. For example, two refuges in Louisiana collect mitigation 
fees from oil and gas operators that are then used to pay for 
monitoring operator compliance with permits and state and federal laws. 
In contrast, other refuges do not issue permits or collect fees, are 
not aware of the extent of oil and gas activities or the attendant 
risks to refuge resources, and provide little management and oversight.
---------------------------------------------------------------------------
    \14\ U.S. General Accounting Office, Standards for Internal Control 
in the Federal Government, GAO/AIMD-00-2131 (Washington, D.C.: Nov. 
1999).
---------------------------------------------------------------------------
    Management and oversight of oil and gas activities varies for two 
primary reasons. First, FWS's legal authority to require oil and gas 
operators to obtain access permits with conditions to protect refuge 
resources varies considerably depending upon the nature of the mineral 
rights. For reserved mineral rights--cases where the property owner 
retained the mineral rights when selling the land to the federal 
government--FWS can require permits only if the property deed subjects 
the rights to such requirements. For outstanding mineral rights--cases 
where the mineral rights were separated from the surface lands before 
the government acquired the property--FWS has not formally determined 
its position regarding its authority to require access permits. 
However, we believe, based on statutory language and court decisions, 
that FWS has the authority to require owners of outstanding mineral 
rights to obtain permits. Second, refuge managers lack sufficient 
guidance, resources, and training to properly monitor oil and gas 
operators. Current FWS guidance regarding the management of oil and gas 
activities where there are private mineral rights is unclear, according 
to refuge staff. Refuge staff said they also lack sufficient resources 
to oversee oil and gas activities, which are substantial at some 
refuges. Only three refuges in the system have staff dedicated full-
time to monitoring these activities, and some refuge staff cite a lack 
of time as a reason for limited oversight. Staff also cite a lack of 
training as limiting their capability to oversee oil and gas operators; 
FWS has offered only one oil- and gas-related workshop in the last 10 
years.
    On a related management issue, FWS has not always thoroughly 
assessed property for possible contamination from oil and gas 
activities prior to its acquisition, even though FWS guidance requires 
an assessment of all possible contamination. For example, FWS acquired 
one property that is contaminated from oil and gas activities because 
staff did not adequately assess the subsurface property before 
acquiring it. After acquiring the property, FWS found that large 
amounts of soil were contaminated with oil. FWS has thus far spent 
$15,000, and a local conservation group spent another $43,000, to 
address the contamination. We found that the guidance and oversight 
provided to FWS regional and refuge personnel were not adequate to 
ensure that the requirements were being met.

Conclusions
    The National Wildlife Refuge System is a national asset established 
principally for the conservation of wildlife and habitat. While 
federally owned mineral rights underlying refuge lands are generally 
not available for oil and gas exploration and production, that 
prohibition does not extend to the many private parties that own 
mineral rights underlying refuge lands. The scale of these activities 
on refuges is such that some refuge resources have been diminished, 
although the extent is unknown without additional study.
    Some refuges have adopted practices--for example, developing data 
on the nature and extent of activities and their effects on the refuge, 
overseeing oil and gas operators, and training refuge staff to better 
carry out their management and oversight responsibilities--that limit 
the impact of these activities on refuge resources. If these practices 
were implemented throughout the agency, they could provide better 
assurance that environmental effects from oil and gas activities are 
minimized. In particular, in some cases, refuges have issued permits 
that establish operating conditions for oil and gas activities, giving 
the refuges greater control over these activities and protecting refuge 
resources before damage occurs. However, FWS does not have a policy 
requiring owners of outstanding mineral rights to obtain a permit, 
although we believe FWS has this authority, and FWS can require owners 
of reserved mineral rights to obtain a permit if the property deed 
subjects the rights to such requirements. Confirming or expanding FWS's 
authority to require reasonable permit conditions and oversee oil and 
gas activities, including cases where mineral rights have been reserved 
and the property deed does not already subject the rights to permit 
requirements, would strengthen and provide greater consistency in FWS's 
management and oversight. Such a step could be done without infringing 
on the rights of private mineral owners. Finally, FWS's land 
acquisition guidance is unclear and oversight is inadequate, thereby 
exposing the federal government to unexpected cleanup costs for 
properties acquired without adequately assessing contamination from oil 
and gas activities.
    In our report, we made several recommendations to improve the 
framework for managing and overseeing oil and gas activities on 
national wildlife refuges, including (1) collecting and maintaining 
better data on oil and gas activities and their environmental effects, 
and ensuring that staff resources, funding, and training are sufficient 
and (2) determining FWS's existing authority over outstanding mineral 
rights. We also recommended that the Secretary of the Interior, in 
coordination with appropriate Administration officials, seek from 
Congress any necessary additional authority over outstanding mineral 
rights, and over reserved mineral rights, to ensure that a consistent 
and reasonable set of regulatory and management controls are in place 
for all oil and gas activities occurring on national wildlife refuges.
    The Department of the Interior's response to our recommendations 
was mixed. The department was silent on our recommendations that it 
should collect and maintain better data on oil and gas activities and 
their effects and that it should ensure that staff are adequately 
trained to oversee oil and gas activities. Also, while the department 
was silent on whether it should review FWS's authority to regulate 
outstanding mineral rights, it raised procedural concerns about our 
recommendation that it seek any necessary additional authority from 
Congress to regulate private mineral rights. We continue to believe 
that our recommendation is warranted. In light of the department's 
opposition, we suggested that the Congress consider expanding the FWS's 
authority to enable it to consistently regulate the surface activities 
of private mineral owners on refuges.
    Thank you Mr. Chairman and Members of the Subcommittee. That 
concludes my prepared statement. I would be pleased to respond to any 
questions that you may have.

Contacts and Acknowledgments
    For further information on this testimony, please contact Barry T. 
Hill at (202) 512-3841. Individuals making key contributions to this 
testimony included Paul Aussendorf, Robert Crystal, Jonathan Dent, 
Doreen Feldman, and Bill Swick.

GAO's Mission
    The General Accounting Office, the audit, evaluation and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the federal government for the American people. 
GAO examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.

Obtaining Copies of GAO Reports and Testimony
    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through the Internet. GAO's Web site (www.gao.gov) contains 
abstracts and full-text files of current reports and testimony and an 
expanding archive of older products. The Web site features a search 
engine to help you locate documents using key words and phrases. You 
can print these documents in their entirety, including charts and other 
graphics.
    Each day, GAO issues a list of newly released reports, testimony, 
and correspondence. GAO posts this list, known as ``Today's Reports,'' 
on its Web site daily. The list contains links to the full-text 
document files. To have GAO e-mail this list to you every afternoon, go 
to www.gao.gov and select ``Subscribe to e-mail alerts'' under the 
``Order GAO Products'' heading.
    The first copy of each printed report is free. Additional copies 
are $2 each. A check or money order should be made out to the 
Superintendent of Documents. GAO also accepts VISA and Mastercard. 
Orders for 100 or more copies mailed to a single address are discounted 
25 percent. Orders should be sent to:
        U.S. General Accounting Office
        441 G Street NW, Room LM
        Washington, D.C. 20548
    To order by Phone: Voice:
        (202) 512-6000
        TDD: (202) 512-2537
        Fax: (202) 512-6061
                                 ______
                                 
    [Mr. Hill's response to questions submitted for the record 
follows:]

                GAO Response to Questions for the Record

Questions submitted by Representative Frank Pallone
    1. The GAO reported that the Fish and Wildlife Service does not 
know about all of the wells and other oil and gas activities that occur 
on its refuges. This is a surprising revelation.
        a.  How complete is your account of the extent of the oil and 
        gas activities on refuges, and how did you develop your 
        information? How is this data useful?
    Information we developed on the extent of oil and gas activities is 
more complete than anything reported to date because it relies on 
comprehensive databases of well and pipeline locations, whereas 
previous attempts had relied upon resident Fish and Wildlife Service 
(FWS) staff to self-report the presence but not extent of activity. To 
determine the number of wells residing on FWS lands, we contracted with 
Premier Data Services. Premier maintains a national well database based 
on state oil and gas commission permit data, which includes geographic 
location information. Premier plotted well locations against digital 
maps of refuges to determine how many resided within and near refuges. 
In addition to obtaining information on the location of oil and gas 
wells, we also obtained information on the status, type, and amount of 
production of oil, gas, and water (brine) from each well. We eliminated 
from the database permitted wells that were not drilled, while wells 
with any production in the most recent reporting period we categorized 
as active; all other wells we categorized as inactive. To identify 
pipelines transiting refuge lands, we relied on the National Pipeline 
Mapping System (NPMS), which is maintained by the Office of Pipeline 
Safety in the Department of Transportation and on FWS's Refuge 
Management Information System (RMIS). We overlaid the NPMS data on the 
138 refuges for which we had digital refuge boundary data because they 
also had wells inside or just outside their boundaries. Additional 
refuges may contain transit pipelines, but FWS did not have digital 
boundary data available to use in identifying those pipelines. NPMS is 
based on data reported to the Office of Pipeline Safety by pipeline 
owners. NPMS includes 99 percent of the nation's hazardous liquids 
(including oil and other petroleum products) pipelines and 61 percent 
of natural gas pipelines in the United States.
    Our data has been provided to FWS in its entirety and will be 
useful to national and refuge level efforts to manage and oversee oil 
and gas activities, including identifying risks to refuge resources and 
seeking reclamation where damage has occurred.
    2. In your report, the GAO discussed the wells and pipelines that 
occur outside of refuge boundaries. However, I am not sure what the 
purpose was to include a reference to facilities that the Fish and 
Wildlife Service has no direct authority to regulate.
        a.  Since the Fish and Wildlife Service does not have authority 
        over these activities, why did you think it was important to 
        report them?
    We identified and reported on the number of wells and pipelines 
within 1/2 mile of refuge boundaries for two reasons. First, FWS needs 
to be aware of oil and gas activities immediately surrounding its 
refuges, as contamination can migrate onto refuges and affect refuge 
resources. Second, lands immediately surrounding refuges are often 
targeted for future acquisition. Knowledge of oil and gas activities on 
these lands is important to refuge planning and lands acquisition.
    3. You assessed the environmental effects of oil and gas activities 
and the Fish and Wildlife Service's management and oversight of oil and 
gas activities, in part, by visiting a select subset of refuges.
        a.  How and why did you select the refuges you visited?
    We selected for physical inspection at least one refuge in each of 
FWS's seven regions. In making these selections, we attempted to choose 
a cross section of refuges considering the type and scale of oil and 
gas activities, range of environmental effects, and extent and type of 
management and oversight. In total, we visited 16 refuges containing 
1,510 active and 2,695 total oil and gas wells, about 84 percent and 61 
percent, respectively, of all oil and gas wells we identified on 
refuges. At each refuge visited, we asked the refuge manager to 
describe the effects of oil and gas activities on the refuge, obtained 
any available studies of these effects, and visited locations of oil 
and gas activity selected by the refuge manager to represent a range of 
effects.
        b.  In your opinion, is this sample representative of the 
        problems throughout the refuge system as a whole?
    For the one-quarter of refuges with oil and gas activities, we 
believe it is representative. In addition to the 16 refuges we visited, 
we contacted other refuges by phone that reported similar issues.
    4. According to the GAO report, the environmental effects of oil 
and gas activities have been reduced due to the passage of new laws, 
improvements in industry practices, and voluntary and ordered actions 
taken to restore habitat damage that has occurred.
        a.  From your observations have these steps been successful in 
        protecting refuge resources or are they simply a triage 
        approach to the problem?
    We do not know to what extent each of these changes has contributed 
to reducing the effects of oil and gas activities on refuges. In large 
part this is because FWS does not have baseline information on refuges' 
conditions prior to these changes in laws and practices. We did, 
however, encounter evidence that changes in environmental laws, changes 
in industry practice, and operator actions to reduce environmental 
effects resulted in improvements at refuges that we visited. These 
measures are by their very nature variable and not consistent across 
all refuges.
        b.  In this regard, how are protections for refuge resources 
        undercut by State or local laws or regulations that are more 
        permissive of oil and gas activities?
    Any state or local laws that might be more permissive than federal 
law of oil and gas activities and that actually conflicted with federal 
requirements likely would be deemed to be legally ``preempted'' by the 
federal requirements. Federal law preempts state law when, among other 
things, state law conflicts with federal law to the extent that it is 
impossible to comply with both state and federal law, or when the state 
law is an obstacle to accomplishing the full purposes or objectives of 
the federal law. Silkwood v. Kerr-McGee Corp., 464 U.S. 238, 248 (1984) 
(citations omitted). Federal law generally does not preempt more 
stringent state or local laws, however (assuming they do not conflict 
with the federal requirements); such laws would apply in addition to 
the federal rules. For example, certain states require permits for 
wells drilled by private mineral owners, and some states set plugging 
and abandonment requirements for these private wells. Because FWS staff 
provide the primary means of oversight over oil and gas activities on 
refuge lands, it is vital that they be aware of state and local laws 
and coordinate with state and local authorities to ensure appropriate 
protection of the refuge resources.
    5. In your report, you state that in some cases oil and gas 
operators have taken steps to reclaim sites once oil and gas activities 
are complete and facilities shut down.
        a.  From your observations, how effective are those actions in 
        terms of restoring environmental quality and ensuring public 
        safety on refuges?
    In cases where reclamation has occurred, refuge managers are 
generally satisfied with the results, although they did cite examples 
where some infrastructure was not removed. Based on the few reclamation 
efforts that we observed, for example, at McFaddin National Wildlife 
Refuge, the sites were restored to an extent that they were visually 
similar to surrounding areas, but it is unknown if contamination 
lingers in these locations.
        b.  When do operators take those actions? Are there standard 
        procedural triggers that compel reclamation?
    Reclamation may be triggered by federal regulations, state laws, 
and FWS permits. 50 CFR 29.32 requires operators to reclaim refuge 
lands after their use. However, federal regulations are not specific as 
to when this will occur. Owners or operators may sell their leases to a 
new operator rather than undertake the expense of reclaiming a site. 
Further, operators can claim that an idled site will be reopened in the 
future. State regulators are responsible for ensuring that idled sites 
are properly abandoned and reclaimed if not producing but enforcement 
is often lacking. Reclamation is also governed by state laws, which 
vary. For instance, Texas does not require operators to remove all 
buried flowlines or access roads. Finally, where FWS has authority to 
require operators to acquire permits, the permits may require operators 
to take certain steps to reclaim the site. For instance, an FWS permit 
required an operator at McFaddin National Wildlife Refuge to reclaim 
any unproductive sites within 90 days. The operator removed a road and 
a well pad that they constructed to access a new well site and restored 
the marsh damaged by construction.
        c.  Why is reclamation of abandoned oil and gas facilities and 
        sites not consistently applied across the Refuge System?
    Abandoned oil and gas facilities are not consistently reclaimed for 
a variety of reasons--for example, a lack of oversight and enforcement, 
potential for future use of the site, refuge staff that may be 
uncertain of requirements, responsible parties that can no longer be 
identified or held liable, and a lack of funds for state orphan well 
plug and abandonment programs.
    6. In the GAO report, you describe a wide range of management 
practices and oversight of oil and gas activities at National Wildlife 
Refuges between regions and between specific refuges within regions. 
This haphazard pattern of management seems to demand some consistency.
        a.  From your observations, what are the main differences 
        between a well-managed refuge and a poorly managed refuge?
    Well-managed refuges have identified the nature and extent of oil 
and gas activities on the refuge and have assessed the risks these 
activities pose to refuge resources--at a minimum they have completed a 
Contaminant Assessment Process study. Well-managed refuges have also 
adopted risk-reduction procedures, such as issuing access permits with 
conditions to protect refuge resources, securing financial assurance 
that reclamation will occur, and overseeing oil and gas operations with 
trained and dedicated staff that are familiar with federal and state 
environmental laws. Poorly managed refuges have followed few, if any, 
of these practices.
        b.  Would improved management and oversight of oil and gas 
        activities reduce the negative effects on refuge resources 
        caused by these activities?
    Undoubtedly, improved management and oversight would help reduce 
(but not eliminate) the negative impacts of oil and gas activities. If 
the practices employed by well-managed refuges cited in 6.a. were 
implemented throughout the agency, they could provide better assurance 
that environmental effects from oil and gas activities are minimized. 
In particular, if all refuges issued permits establishing operating 
conditions for oil and gas activities, refuges would have greater 
control over these activities and better protect refuge resources 
before damage occurs.
        c.  Because of the disparity among regions and between sites in 
        how they regulate oil and gas activities, do you believe that 
        it requires much closer coordination from the Department of the 
        Interior?
    The National Wildlife Refuge System varies from other public lands 
managed by other Interior agencies, because they are the only lands set 
aside specifically for conservation and management of fish, wildlife, 
and plant resources, and need to be managed accordingly. Developing 
greater consistency of management and oversight of oil and gas 
activities within the FWS will require more active leadership from 
FWS's headquarters in setting policy and clarifying its authority to 
issue permits. The FWS needs the support of the Department in seeking 
additional authority to oversee and manage these activities.
    7. You also identified uncertainties about the Fish and Wildlife 
Service's authority to require oil and gas operators to obtain a permit 
that would specify actions needed to protect refuge resources.
        a.  Why is Fish and Wildlife Service's authority to require 
        permits unclear?
    As explained in more detail in Appendix III of our report, current 
legislation does not explicitly state that FWS may require owners of 
private mineral rights to obtain permits before conducting oil and gas 
activities. Rather, FWS's permit authority (which does not currently 
apply to all types of mineral rights) flows from its more general 
authority over wildlife refuges. FWS can require private owners of 
``reserved'' mineral rights--which are created when the property owner 
retains the mineral rights at the time the surface property is 
transferred to the federal government--to obtain a permit before 
exercising those rights only if the deed transferring surface ownership 
to the government contains language that subjects these rights to 
permitting requirements. This limited authority over reserved rights is 
based largely on a section of the Migratory Bird Conservation Act that 
makes these rights subject to government regulation if the deed 
includes specific requirements, such as permitting requirements, or 
states that the rights are subject to regulations prescribed by the 
Department ``from time to time.'' 16 U.S.C. Sec. 715e.
    By contrast, we believe FWS can require all private owners of 
``outstanding'' mineral rights--which are created when the mineral 
rights are separated from the surface lands prior to the transfer of 
the surface property to the government (and are thus owned by a third 
party)--to obtain a permit before exercising those rights. Although 
current law does not explicitly state that FWS may require such 
permits, language in the National Wildlife Refuge System Act, which 
governs FWS's administration of wildlife refuges, is very similar to 
language in laws governing the national parks and the national forests 
that has been held to authorize the National Park Service and the 
United States Forest Service to require owners of private mineral 
rights on federal lands to obtain permits before exercising those 
rights. See Dunn McCampbell Royalty Interest, Inc. v. National Park 
Service, 964 F. Supp. 1125 (S.D. Tex. 1995), aff'd on other grounds, 
112 F.3d 1283 (5th Cir. 1997); Duncan Energy Co. v. United States 
Forest Service, 50 F. 3d 584 (8th Cir. 995). By analogy, we believe FWS 
could issue regulations under its existing statutory authority 
requiring private oil and gas operators to obtain permits with 
appropriate conditions for exploration and development of outstanding 
rights.
        b.  Would requiring such permits reduce the environmental 
        effects on refuges and improve the Service's ability to manage 
        and oversee oil and gas activities?
    If FWS could require permits for oil and gas activities at every 
refuge it would undoubtedly reduce the environmental effects caused by 
those activities. Permitting would allow FWS to add reasonable 
conditions to protect refuge resources--for example, requiring that oil 
and gas operations avoid sensitive areas or seasons of the year or 
operate their facility in a particular manner. The permit would also 
provide FWS with a legal basis to conduct oversight activities and take 
enforcement action if the operator was not complying with the permit's 
conditions.

Questions submitted by Representative Edward Markey
    1. According to GAO report, ``there are 2,600 inactive wells on 
refuges, including an unknown number that have been abandoned, but not 
plugged, and some sites also have unused tanks, flowlines, and debris 
that should be removed (p. 29).'' It also notes that the Anahuac 
National Wildlife Refuge alone has an estimated cost of cleanup is 
[sic] $1.1 million. Can the GAO estimate what the cleanup liability 
from oil and gas activities on refuges is and how much of that the 
taxpayers might have to cover?
    We cannot estimate the total cost of reclamation or how much may 
have to be funded by taxpayers because there is no refuge system 
inventory of oil and gas infrastructure, the status of this 
infrastructure, or the parties responsible for reclamation. Our 
accounting of oil and gas wells is a necessary first step, but FWS will 
need to undertake a system-wide inventory of all oil and gas 
infrastructure, such as storage tanks, pipelines, and well pads, and 
whether that equipment is still in use before any estimates of 
reclamation costs can be made. The FWS will then need to identify 
responsible parties, where possible, and whether these parties are 
capable of underwriting the cost of reclamation. FWS's Region 2 has 
begun such a study, visually inspecting and inventorying oil and gas 
infrastructure on refuges in that region. At the time of our audit, the 
region was awaiting additional funds to complete this study.
    2. The GAO report concludes that nearly $900 million worth of oil 
and gas was produced from national wildlife refuges in the last 12-
month period for which there is data. In contrast, the GAO report 
concludes that the Fish and Wildlife Service lacks adequate funds to 
oversee oil and gas activities on refuges. For example, very few 
refuges have staff assigned specifically to oversee oil and gas 
activities, not all refuges have completed Contaminant Assessment 
Process studies, some refuges are tarnished with contaminated soils and 
waters with no funds for remediation, and a number of refuges are 
littered with rusty old oil and gas infrastructure with no means of 
removing the structures.
        If the Fish and Wildlife Service required special use permits 
        for access to outstanding mineral rights, as the GAO suggests 
        it has authority to do, it could in theory charge a fee for 
        such permits. Even one-half of one percent fee imposed on the 
        value of oil and gas produced from refuges would raise more 
        than $4 million a year, which could go a long way towards 
        improving Fish and Wildlife Service's ability to address the 
        problems associated with oil and gas on refuges. Are there 
        impediments to assessing such fee?
    There are limitations on FWS's current statutory authority to 
impose permit fees and to use any fees it receives for administration 
of an oil and gas activity permit program. Title V of the Independent 
Offices Appropriations Act, known as the IOAA or the ``User Charge 
Statute,'' 31 U.S.C. Sec. 9701, authorizes agencies to charge a fee for 
a service or thing of value provided by the agency to an identifiable 
beneficiary. Under the IOAA, if FWS were to establish a permit 
requirement, it could charge permittees an appropriate fee for its 
administration and oversight costs for oil and gas permits. However, 
fees imposed under the authority of the IOAA may not exceed an agency's 
cost of rendering the service, and thus FWS could not impose a fee 
based on the value of oil and gas produced from refuges. Moreover, 
absent specific legislation, fees collected under the authority of the 
IOAA must be deposited in the Treasury as miscellaneous receipts. 
Because FWS currently has no such specific authority, it would not be 
able to retain fees collected under the IOAA. Office of Management and 
Budget Circular No. A-25 sets out guidance for the executive branch's 
implementation of the IOAA.
    3. Is there a legal mechanism for the FWS to be compensated for the 
loss of habitat while operations are ongoing? For example, if an oil 
well consumes 10 acres in its pad, road, and pipelines, can the FWS 
receive some type of rental payment for the loss of use of that surface 
property? This would be in addition to any guarantees provided to 
remove and clean up infrastructure while operations are completed.
    There is currently no clear basis in federal law for FWS to be 
compensated, in the nature of a rental payment, for the loss of use of 
habitat (as opposed to obtaining damages for certain injuries to the 
surface lands) for the period while an owner of private mineral rights 
conducts oil and gas operations. Some state laws may provide a basis 
for such compensation, however. With respect to federal law, FWS's 
regulations require only that private mineral owners minimize 
interference with the operation of the refuge and keep ``[p]hysical 
occupancy'' of the area in which exploration, development, and 
production operations are conducted ``to the minimum space compatible 
with the conduct of efficient mineral operations.'' 50 C.F.R. 
Sec. 29.32. An operator who fails to comply with these requirements is 
subject to a fine and or imprisonment, depending on the nature of the 
operator's actions. 16 U.S.C. Sec. 668dd(f).
    The same FWS regulation--which also requires oil and gas operators, 
``to the greatest extent practicable, ... to conduct their operations 
``in such a manner as to prevent damage, erosion, pollution, or 
contamination to the lands, waters, facilities and vegetation of the 
area'' provides that the regulation should not be applied in a way that 
``contravene[s] or nullif[ies]'' the rights of owners of mineral 
rights. This clause reflects the general common law principle, 
discussed in Appendix III of our report, that private mineral rights 
owners have the right to use the surface lands in a manner that is 
reasonably necessary to explore and extract the underlying minerals, 
and that the remedy for the overlying landowner--here the United 
States--in the event of contamination or other injury for activities 
beyond those ``reasonably necessary'' would be a suit for monetary 
damages. See, e.g., Slaaten v. Cliff's Drilling Co., 748 F.2d 1275, 
1277 (8th Cir. 1984); United Geophysical Corp. v. Culver, 394 F.2d 393 
(5th Cir. 1964); Flying Diamond Corp. v. Rust, 551 P.2d 509, 511 (Utah 
1976); Guffey v. Stoud, 16 S.W.2d 527 (Tex. Comm. App. 1929). 
<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ It is unclear what, if any, impact the court's November 18, 
2003, decision in Mineral Policy Center v. Norton, No. 01-00073 (HHK), 
D.D.C., might have on this FWS regulation. The Mineral Policy Center 
court found that issuance of permits to mining operations that degrade 
or damage public lands violates the Federal Land Policy and Management 
Act (FLPMA), which in turn ``vests the Secretary of the Interior with 
the authority and indeed the obligation to disapprove of an otherwise 
permissible mining operation because the operation, though necessary 
for mining, would unduly harm or degrade the public land.'' However, 
the court upheld regulations issued under FLPMA in 2001, finding that 
the regulations were not ``manifestly contrary'' to FLPMA.
---------------------------------------------------------------------------
    By comparison, some states have enacted statutes that may provide a 
basis for compensation for lost use of land due to oil and gas 
operations. For example, North Dakota requires the mineral developer to 
compensate the surface owner (which, in the case of a national wildlife 
refuge, is the United States) for the ``lost use of surface access.'' 
N.D. Cent. Code Sec. 38-11.1-04. Thus, the federal government might 
have a basis for recovering for the loss of use of habitat caused by 
private oil and gas operations on a national wildlife refuge located in 
North Dakota.
    4. What are the existing or potential legal opportunities to impose 
tax or fee on oil and gas operations on refuges with private minerals 
to defray the costs of oversight and management of these activities?
    With respect to fees, as explained in response to question #2, if 
FWS establishes a permit program for oil and gas activity on refuges, 
the IOAA would authorize FWS to impose a fee on operators to cover the 
costs of administering and overseeing the program. If Congress enacted 
legislation specifically allowing FWS to use these fees to defray its 
costs, FWS could do so; otherwise, FWS would have to deposit the fees 
into the Treasury as miscellaneous receipts. With respect to taxes, 
there is no current statutory authority allowing taxation of oil and 
gas activities on refuges. Congress would have to enact such 
legislation and designate the appropriation account to which those 
taxes should be credited.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Hill.
    Mr. Smith.

  STATEMENT OF DAVID P. SMITH, DEPUTY ASSISTANT SECRETARY FOR 
     FISH, WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR; 
  ACCOMPANIED BY WILLIAM HARTWIG, CHIEF OF NATIONAL WILDLIFE 
         REFUGE SYSTEM, U.S. FISH AND WILDLIFE SERVICE

    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman and members of the Subcommittee, I am David P. 
Smith, Deputy Assistant Secretary for Fish, Wildlife and Parks. 
I am joined today by Mr. William Hartwig, who is Assistant 
Director and Chief for Refuges in the Fish and Wildlife 
Service.
    Thank you for this opportunity to provide the Department of 
Interior's views on the GAO report on oil and gas activities on 
units of the National Wildlife Refuge System.
    We take the recommendations contained in the report 
seriously. However, they need to be viewed in the context of 
the overall situation with respect to oil and gas activities in 
the Refuge System.
    We are in the process of developing a formal response to 
the report, and we will provide this Subcommittee with a copy 
as soon as it is finalized.
    With the exception of refuge lands in Alaska, where the 
Federal Government owns most of the subsurface mineral rights, 
the U.S. Fish and Wildlife Service frequently owns only the 
surface rights to lands within the National Wildlife Refuge 
System. Where private interests own the mineral rights on those 
lands, it is their right by law to have access to those 
minerals.
    Historically, the reason for this division of ownership of 
the surface estate and mineral estate is that, at the time of 
purchase, the mineral estates are often either not for sale or 
prohibitively expensive. In these cases, the surface estates 
were purchased independently from the mineral rights.
    This same approach has been used by several major private 
conservation groups in an effort to purchase required through 
donation valuable habitat that otherwise would be prohibitively 
expensive or not for sale at all.
    This is not a new topic for Congress, the Department, or 
the Fish and Wildlife Service. There were at least five 
hearings over potentially incompatible uses on refuge lands in 
the 101st and 102nd Congresses held by the former Committee on 
Merchant Marine and Fisheries, the Committee on Government 
Reform, and the Senate Committee on Environment and Public 
Works. There was also a GAO report and a detailed evaluation of 
all uses of the Refuge System was conducted at that time by the 
Fish and Wildlife Service and provided to these committees.
    The nature and extent of oil and gas activities on refuges 
were presented during these hearings and addressed in the 
evaluation, along with a wide variety of other uses. At no 
point during this process did the leadership of the Service or 
any of the committees indicate oil and gas activities on 
refuges was a significant problem.
    In addition, neither President Clinton's Executive Order on 
management of refuges, nor the National Wildlife Refuge System 
Improvement Act of 1997, negotiated by the former Secretary of 
the Interior and Members of Congress, contain any provisions 
which address directly oil and gas activities on National 
Wildlife Refuges.
    Departmental regulations adopted in the 1980s prohibit 
developing federally owned mineral resources, including oil and 
gas, on National Wildlife Refuges outside of Alaska, except in 
the case to prevent drainage. Oil and gas development in 
National Wildlife Refuges today occurs under two scenarios: 
either as a result of private ownership of mineral rights, in 
which case our ability to regulate oil and gas development may 
be limited, or in order to protect against drainage of Federal 
oil and gas resources from activities on adjacent lands, in 
which case oil and gas activity occurs under Federal lease and 
permit requirements, including conditions to ensure habitat 
protection.
    Similarly, with respect to pipelines, they are either 
present and in place at the time the Service acquires the land, 
or they are constructed under permit from the Service following 
a compatibility determination and under the terms and 
conditions the Service deems appropriate for protection of 
refuge resources.
    In neither case, the Service was aware of the presence of 
retained oil and gas rights, or the pipeline at the time it 
acquired the property and determined the potential benefits of 
including the area and the natural resources therein within a 
National Wildlife Refuge outweighed whatever impacts might 
result from the presence of that mineral right or pipeline.
    The report offers several recommendations, which you have 
already heard from GAO. I would like to add the following 
observations.
    Many of these lands have had oil and gas activities for 
decades, in some cases dating back more than 70 years. This is 
not a new issue. Instead, it is one that has been with us for 
many years. We are not saying there are no problems. However, 
we believe the Service is generally doing a good job in manning 
this longstanding and complex issue.
    We must all recognize that oil and gas exploration is only 
one of the management issues we must address as we assess 
operational needs across the entire Refuge System. President 
Bush has requested substantial increases in funding each year.
    At the same time, we are addressing other very real threats 
to our refuges. For example, the damage caused by invasive 
species affects refuges from Alaska to the Caribbean, with over 
80 percent of refuges reporting problems with invasives. This 
is a problem that Chairman Gilchrest is very familiar with and 
has been a great partner to us on.
    Although the Service to date has taken management actions 
in an attempt to control nutria in black water and other 
places, as well as other invasive species on over 300 separate 
refuges, we need to do more. We believe we are able, under our 
existing authorities, to effectively manage and oversee oil and 
gas development activities on our National Wildlife Refuges. We 
will continue to work to address all the challenges that our 
managers and refuge resources face.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions that you or other members of the 
Subcommittee may have, and I would ask that my official 
statement be made part of the official record.
    Thank you.
    Mr. Gilchrest. Without objection.
    [The prepared statement of Mr. Smith follows:]

 Statement of David P. Smith, Deputy Assistant Secretary for Fish and 
          Wildlife and Parks, U.S. Department of the Interior

    Mr. Chairman and Members of the Subcommittee, I am David P. Smith, 
Deputy Assistant Secretary for Fish and Wildlife and Parks. Thank you 
for the opportunity to provide the Department of the Interior's 
(Department) views on the General Accounting Office's Final Report 
(Report) on the management and oversight of oil and gas activities on 
units of the National Wildlife Refuge System (GAO-03-517). A copy of 
the Report was provided to the Department on September 23, 2003.
    The Administration takes the recommendations contained in the 
Report seriously. My plan today is to provide you with some brief 
background material and offer some initial responses to the Report's 
recommendations. In this regard, I should point out that, pursuant to 
31 U.S.C. 720 and Departmental policy, we are in the process of 
developing a formal response to the Report which should provide a more 
detailed look at how we plan to address GAO's recommendations. We will 
gladly provide the Subcommittee with a copy of that response as soon as 
it is available.

Oil and Gas Activities and the National Wildlife Refuge System
    With the exception of refuge lands in Alaska, where the federal 
government owns most of the sub-surface mineral rights, in many cases, 
the U.S. Fish and Wildlife Service (Service) owns only the surface 
rights to lands within the National Wildlife Refuge System (NWRS). 
Where private interests own the sub-surface or mineral rights on these 
lands, it is their right by law to access those minerals. The 
Administration respects those rights in making management decisions and 
we have found that most of the owners of these sub-surface rights work 
cooperatively with the refuges.
    Generally, the reason for this division of the surface and mineral 
estates is that often the mineral rights are either not for sale or are 
prohibitively expensive at the time the surface rights are purchased. 
In these cases, the surface rights are purchased independently from the 
mineral rights. This same approach has been used by several major 
private conservation groups, in part so they, too, can more easily 
acquire lands that are deserving of protection.
    Department regulations require ``to the greatest extent 
practicable,'' that ``all exploration, development and production 
operations'' be conducted in such a manner as to ``prevent damage, 
erosion, pollution, or contamination to the lands, waters, facilities, 
and vegetation of the area.'' Further, ``so far as practicable, such 
operations must also be conducted without interference with the 
operation of the refuge or disturbance to the wildlife thereon.'' (50 
C.F.R. Part 29.32.)
    According to the GAO Report, 155 of the 575 units administered by 
the Service have current or past oil and gas activities. The GAO found 
that, as of December 2002, there were 1,806 active wells on 36 refuges, 
with most of those wells concentrated on just 5 refuges, and mostly in 
the State of Louisiana. Sixty-nine refuges contain an additional 2,600 
inactive wells. The Report also notes that at least one active pipeline 
is present over 107 units.
    The Report cites information from the most recent 12-month 
reporting period showing that the active wells are responsible for 
producing 23.7 million barrels of oil and 88.2 million cubic feet of 
natural gas, about 1.1 and 0.4 percent of the Nation's domestic oil and 
gas production, respectively. In 2001 prices, refuge-based production 
had an estimated commercial value of $880 million.
    While this GAO Report has generated some interest, oil and gas 
activity on national wildlife refuges is not a new topic for Congress, 
the Department, or the Service.
    During the 101st and 102nd Congresses, several hearings over 
existing and possibly incompatible uses of the refuge system were held 
in the former Committee on Merchant Marine and Fisheries, the Committee 
on Government Reform, and the Senate Committee on Environment and 
Public Works. This was accompanied by a GAO Report, and a detailed 
evaluation of all uses of the Refuge System was conducted by the 
Service and provided to the Committees. The nature and extent of oil 
and gas activities on refuges were reported during those hearings and 
addressed in the evaluation, along with a wide variety of other uses. 
At no point during this process did prior Administrations or any of the 
Committees indicate this was a significant problem.
    In addition, there were no proposals or amendments offered about 
oil and gas activity within the refuge system while the organic statute 
for the NW RS was being debated in the 104th and 105th Congress, and 
neither the 1996 Executive Order No. 12996, relating to the management 
of refuges, nor the National Wildlife Refuge System Improvement Act of 
1997, P. L. 105-57, which significantly amended the basic NWRS 
authority, have any provisions on the issue.
    This is most likely because Departmental regulations, found at 43 
C.F.R. 3101.5-1 and adopted in the 1980s, prohibit developing federal 
mineral resources, including oil and gas, on national wildlife refuges 
outside of Alaska, except to prevent drainage. Development in Alaska is 
controlled by the Alaska National Interest Lands Conservation Act 
(ANILCA).
    Oil and gas development at national wildlife refuges today occurs 
under two scenarios. It is either as the result of private mineral 
rights retained prior to or at the time the Service acquired the land, 
in which case our ability to regulate the oil and gas development may 
be limited, or it occurs as the result of drainage of adjacent federal 
oil and gas resources, in which case the development occurs under 
federal lease and permit requirements, including conditions to ensure 
habitat protection. In those cases where private rights are retained, 
we must allow these owners to access their mineral rights, because 
otherwise we must purchase them at fair market value. Neither prior 
Administrations nor Congress has proposed to spend the money necessary 
to acquire these outstanding mineral rights.
    A similar situation occurs with respect to pipelines; which were 
either present at the time the Service acquired the land or they were 
constructed under permit from the Service following a compatibility 
determination and with the terms and conditions the Service determined 
was appropriate.
    In the case of prior rights or pipelines, the Service was aware of 
the presence of the retained oil and gas rights or of the pipeline at 
the time it acquired the property, and determined that the potential 
benefits of including the area with a National Wildlife Refuge 
outweighed whatever impacts might result from the presence of that 
right pipeline. Similarly, previous Administrations have testified that 
the problems associated with oil and gas activities on refuges are 
generally not significant enough to warrant the central collection of 
additional information related to this issue.

GAO Findings and Recommendations
    Generally, the GAO found that the Service had not assessed the 
cumulative environmental impacts of oil and gas activities on refuges, 
and that, due to differences in authority and lack of guidance, 
resources, and training, the Service's management and oversight of oil 
and gas activities varies from unit to unit.
    The Report offers several recommendations, including that the 
Secretary direct the Service to:
    <bullet>  Collect and maintain better data on the nature and extent 
of oil and gas activities and the effects of these activities on refuge 
resources;
    <bullet>  Determine the level of staffing necessary to oversee oil 
and gas operators and seek adequate funding to meet those needs;
    <bullet>  Ensure adequate staff training; and
    <bullet>  Provide staff guidance and oversight of the Service's 
land acquisition process to ensure the identification of problems and 
potential clean up costs prior to acquisition.
    The Report also recommends that the Secretary direct the Service to 
work with the Office of the Solicitor to determine the Service's 
existing authority to issue permits and set reasonable conditions 
regarding outstanding mineral rights and report to Congress on the 
results of that determination. Finally, the Report recommends that the 
Administration seek any necessary additional legislative authority over 
those rights, and over reserved mineral rights, so that it can apply a 
``consistent and reasonable set'' of controls over these activities on 
refuge lands.

The Department's Initial Response
    As stated above, we are currently in the process of developing our 
comprehensive formal comments to the recommendations contained in the 
GAO Report, and will provide the Subcommittee with a copy of that 
document as soon as it is available. For purposes of this hearing, 
however, I offer the following observations.
    It is important to note that many of these particular refuge lands 
have had oil and gas activities for decades, in some cases dating back 
more than 70 years. GAO recognized this in its report. This is not the 
manifestation of a new problem; instead, it is an issue that has 
challenged us for many years. This is not to say that there are no 
problems in the present. In general, however, we believe we are doing 
well in our management of this longstanding and complex issue.
    We are already taking steps to respond to the GAO's 
recommendations. For example, the Service is developing a handbook to 
address the management of oil and gas activities on refuge lands. Once 
completed, we expect to provide training on these issues in regions 
where oil and gas activities take place in refuges.
    We are also committed to collecting better data on the impacts of 
oil and gas activities on refuges. Furthermore, in instances where the 
Service has the authority to permit this activity, we will find ways to 
strengthen the application of that authority consistent with both state 
and federal law. Where the Service does not have that authority, we 
will explore options with applicable state and federal regulators. 
Finally, we will continue to work with owners of mineral rights 
underlying our refuges in our ongoing efforts to build partnerships and 
minimize the adverse impacts of these activities on fish and wildlife 
resources.
    However, we must acknowledge that oil and gas exploration is only 
one NWRS management issue that we, as resource managers, must consider 
as we continue to address operations needs across the entire system. 
The President has requested substantial increases in funding in recent 
years to address priority operational needs on our refuges. At the same 
time, we are addressing other very real threats to our refuges. For 
example, the damage caused by invasive species affects refuges from the 
State of Alaska to the Caribbean Sea. Invasive species have caused 
significant declines of protected species and degraded millions of 
acres of refuge lands, waters, and wetlands. The Service has taken 
management actions to control invasive species on over 300 separate 
refuges.
    Finally, we do not believe that additional legislative authority to 
address the management of oil and gas activities on refuges is 
necessary. Oil and gas development technology has improved greatly over 
the past few decades. A substantial number of the problems identified 
in the Report were caused by techniques that are no longer used by 
industry, and impacts to the land often occurred before the land was 
purchased and designated as a refuge. We believe that we are able, 
under our existing authorities, to effectively manage and oversee oil 
and gas development activities on our national wildlife refuges.

Conclusion
    We take seriously the recommendations contained in the Report, and 
will continue to work to address all of the challenges that our 
managers and our refuge resources face.
    Mr. Chairman, this concludes my statement. I am happy to answer any 
questions that you or other Members of the Subcommittee might have.
                                 ______
                                 
    [Mr. Smith's response to questions submitted for the record 
follows:]

            Response to questions submitted for the record 
                 by the U.S. Department of the Interior

Response to questions from The Honorable Frank Pallone
    Pursuant to 31 USC 720, and Departmental Policy, the Department of 
the Interior is in the process of developing a formal response to GAO's 
report which should provide a more detailed look at how it plans to 
address GAO's recommendations. We will gladly provide all Members of 
the Subcommittee with a copy of that response as soon as it is 
available.
    1. In its report, the GAO recommended that the Department of the 
Interior determine the Fish and Wildlife Service's existing authority 
to issue permits regarding outstanding mineral rights. The Department 
declined GAO's request to determine its authority on this issue and did 
not respond to this recommendation in its comments on the report.
        a.  Do you agree with GAO that the Department should determine 
        its existing authority on this issue?
        b.  Would not defining this authority be useful in improving 
        the Service's management and oversight of oil and gas 
        activities on refuges?
    Response: It is the Department's position that the Service 
currently has adequate authority and practices regarding the issuance 
of permits for exploration and development of outstanding mineral 
rights. Where not restricted by deed, the Service will continue to work 
with owners of mineral rights to allow development of private oil and 
gas resources, in a manner consistent with refuge purposes. 
Clarification of existing authority will be provided to Service land 
managers through training and development of a handbook on refuge oil 
and gas management. Moreover, as noted in the Department's statement 
for this hearing, where we do not have authority, we plan to explore 
options with applicable state and Federal regulators.
    2. The GAO further recommended that the Fish and Wildlife Service 
seek from the Congress any necessary additional authority to ensure 
that a consistent and reasonable set of regulatory and management 
controls are in place for all oil and gas activities occurring on 
national wildlife refuges.
      Again, the Service did not respond to the substance of GAO's 
recommendation in its written response.
        a.  Has the Service determined what additional authority it may 
        need to protect the public's surface interest?
    Response: The Administration is not seeking nor contemplating 
additional authorities. Most of the oil and gas issues facing the 
Service today are predominantly historic, having been incurred prior to 
the current level of technological advancement in exploration and 
development practices by the industry.
    3. The GAO reported that the Fish and Wildlife Service does not 
have either a clear idea of the extent of oil and gas activities 
occurring on national wildlife refuges or the environmental effects of 
those activities.
      DOI also did not respond to GAO's recommendation that the Service 
should maintain better data on oil and gas activities on refuges and 
their effects on refuges' resources.
        a.  Why does not the Service have a better understanding of the 
        extent and effects of oil and gas activities on refuges?
        b.  Do you think that the collection of this data is warranted 
        in order to protect the public resources entrusted to the 
        Service's care and stewardship?
    Response: Because of the limited extent of oil and gas activities 
on refuges, and a desire to put our resources where they will have the 
greatest beneficial impact, this has not been the highest priority for 
the bureau. However, the Service is committed to determining whether 
collecting better data on the impacts of oil and gas activities on 
refuges is warranted based on its competing priorities, and if so, what 
type of data would be justified.
    4. It is my understanding that the GAO has made the database of oil 
and gas activities it developed during its study available to the Fish 
and Wildlife Service.
        a.  How does the Service plan to utilize, maintain, and update 
        this database?
        b.  How does the Service intend to disseminate this information 
        to the refuge managers and program specialists in the field?
    Response: The Service will assemble a team to identify the specific 
types of oil and gas related information that the Service should gather 
and to develop the associated data gathering protocols and data 
management systems. Certainly, a review of the GAO database will be 
useful in collecting this data. The team will establish a framework to 
ensure that such systems are developed, function properly and are 
populated with valid information. The team will also develop a plan to 
ensure that these data are available to refuge managers and other 
personnel involved with oil and gas development on refuges.
    5. The GAO report describes a range of environmental effects 
resulting from oil and gas activities on national wildlife refuges. 
Reported impacts include damages such as oil spills, habitat subsidence 
or fragmentation, and groundwater contamination.
        a.  In your view, are these effects primarily the result of 
        limitations on the scope of the Service's authority to prevent 
        damage to refuge resources?
        b.  Or, are these impacts attributed more to insufficient 
        management and oversight by the Service?
    Response: Most of the situations described in the GAO report are 
largely due to past activities. Many of the particular refuge lands 
cited in the report have had oil and gas activities for decades, and in 
some cases, dating back more than 70 years. The GAO recognized this in 
its report. This is not the manifestation of a new problem; instead, it 
is an issue that has challenged the Service for many years based on 
historical uses of refuge lands and outdated technology. This is not to 
say that there are no problems in the present; however, in general the 
Service is doing well in the management of this longstanding and 
complex issue, given the Service's limited resources and competing 
priorities.
    6. In its report, the GAO recommended that the Department of the 
Interior determine what level of staffing is necessary to adequately 
oversee oil and gas activities.
      In its comments, the Department questioned whether hiring 
additional staff was the most cost-effective solution to this issue.
        a.  Is the Department taking any steps to determine its 
        staffing needs to address this deficiency?
        b.  What other options might the Department pursue in lieu of 
        hiring additional Federal personnel?
    Response: An expected outcome of assembling a Service team to 
assess data collection and management on refuges (see response to Q. 4) 
is a clearer picture of the staffing needs required for overseeing 
refuge oil and gas activities. In addition, the Service is developing a 
handbook and training to address the management of oil and gas 
activities on refuge lands, which should make the field managers more 
proficient. We are also looking at the possibility of seeking authority 
to use damage fees System-wide to hire contract staff to monitor refuge 
oil and gas operations and ensure mitigation actions. In addition, in 
lieu of additional staff, increased training and more accessible data 
and information may be options the Department pursues.
    7. On a related note, the GAO reported that the Fish and Wildlife 
Service is developing draft internal guidance to educate refuge staff 
regarding the Service's authority to require oil and gas operators to 
obtain permits.
      It is my understanding, however, that this guidance had not been 
approved by the political leadership within the Department.
        a.  What is the status of this guidance?
    Response: The Service plans to have a draft of the handbook 
prepared by April 2004. We anticipate extensive review of the handbook 
within the Department, with expected completion of the final handbook 
in December 2004.
    8. It is my understanding that the Department of the Interior 
agreed with GAO that the Fish and Wildlife Service should improve its 
acquisition policy and guidance to prevent the Federal government from 
acquiring contaminated property and assuming associated cleanup costs.
      The GAO also reported that numerous wells and pipelines are 
located adjacent to refuge property, in some cases on property 
designated for future acquisition by FWS.
        a.  What steps does the Department plan on taking to address 
        this issue and what is the time line for those actions?
    Response: There has been clear policy issued by both the Department 
(Real Property Pre-acquisition Environmental Site Assessment, DM Part 
602, Chapter 2) and the Service (Pre-acquisition Environmental Site 
Assessments, 341 FW 3). It is the Service's policy to ``minimize the 
potential liability'' and ``identify potential hazardous substance-
related threats to fish and wildlife and their habitats and other 
environmental problems prior to real property acquisition'' (341 FW 
3.3). The training course ``Land Environmental Site Assessment-Level I 
Procedures'' emphasizes that identifying potential hazardous substance-
related threats includes an evaluation of potential watershed, airshed, 
and subsurface contaminants that might affect natural resources. 
Although the existing policies are sound, they can be further improved. 
Therefore, the Service will review and, where necessary, revise its 
Environmental Site Assessment policy. Due to the extensive internal and 
external reviews that are required for policies, we anticipate that the 
final revision will be completed early in 2005. In the interim, the 
Service will issue a Director's Order reaffirming the importance of 
conducting thorough Environmental Site Assessments for all sites, 
including properties with oil and gas activities.
    9. The recent GAO Report is not the first study to conclude that 
oil and gas activity is causing damage to National Wildlife Refuges. 
Previous reports dating back two decades from the GAO, the Fish and 
Wildlife Service, Department of the Interior, and various federally 
appointed ``blue ribbon'' committees also found problems associated 
with oil and gas activities in or near refuges.
      Yet, it appears from reviewing the recent GAO report that the 
Fish and Wildlife Service still has not taken this problem seriously. 
There is still confusion about the extent of the agency's authority to 
regulate oil and gas activity on refuges. There is still inadequate 
oversight of these activities. There remains great inconsistency 
between refuges in the response to spills and other problems. No 
national policy on collecting fees from operators to cover potential 
damages. Too little training of agency personnel to handle issues 
associated with oil and gas on refuges.
      GAO states, ``The overall environmental effects of oil and gas 
activities on refuges' resources are unknown because FWS has conducted 
few cumulative assessments and has no comprehensive data.''
        a.  Where has the Interior Department been for the last 20 
        years?
        b.  Why has the Department not taken this problem seriously and 
        acted on earlier recommendations?
    Response: We take seriously the recommendations contained in the 
GAO report, and will continue to work to address all of the challenges 
that our managers and our refuge resources face. However, oil and gas 
exploration is a management issue that only a comparatively small 
number of refuge managers must consider when compared to all of the 
operational needs across the entire National Wildlife Refuge System. 
The President has requested substantial increases in funding in recent 
years to address priority operational needs on our refuges. At the same 
time, we are addressing other very real threats across the entire 
Refuge System. For example, the damage caused by invasive species 
affects refuges from the State of Alaska to the Caribbean Sea. Invasive 
species have caused significant declines of protected species and 
degraded millions of acres of refuge lands, waters, and wetlands. 
Invasives are but one example. The Service must balance numerous 
threats to the refuge system beyond just oil and gas activities with 
the resources available to the agency.
    10. The GAO states that both the National Park Service and the U.S. 
Forest Service have adopted regulations that require mineral rights 
owners to obtain permits before engaging in oil and gas activities on 
federal lands they manage, but surprisingly, that the Fish and Wildlife 
Service does not. GAO concludes Fish and Wildlife Service has ample 
legal authority to do so but has chosen not to act.
        a.  Why has not the agency moved to adopt such regulations?
        b.  Will the agency in the near future look to initiate a 
        rulemaking process to develop such regulations?
    Response: In instances where the Service has the authority to 
permit oil and gas activity, the Service will continue to find ways to 
strengthen the application of that authority consistent with both state 
and federal law. Where the Service does not have that authority, 
options will be explored and coordinated with applicable state and 
federal regulators. Finally, the Service will continue to work with 
owners of private mineral rights underlying refuges to enhance ongoing 
efforts to build partnerships and minimize the adverse impacts of these 
activities on fish and wildlife resources.
    11. Can you please detail for me how many enforcement actions the 
Interior Department has taken against oil and gas activities that have 
harmed fish, wildlife, and habitats on National Wildlife Refuges?
        a.  How many of these actions have resulted in financial 
        settlements, and of these settlements, what has been the total 
        award to the Federal Government?
        b.  By what procedures has the Fish and Wildlife Service 
        retained and spent these recovered funds?
        c.  How many acres of refuge habitat have been restored through 
        these actions?
    Response: This information is unavailable at this time as the 
Service does not maintain a central repository for such data. This is a 
data field expected to be built as the database on refuge oil and gas 
activities is developed (see response to question number 4). In 
addition, the information referenced in our response to question number 
4 will be included in the Department's formal response to the GAO 
report.
    12. The GAO pointed out that in the past, when the Fish and 
Wildlife Service purchased new refuge lands it often did so without 
purchasing the subsurface minerals, and in those cases, it often did 
not insist on restrictions on surface activities related to accessing 
these minerals.
        a.  Does Fish and Wildlife Service continue to purchase new 
        refuge lands without subsurface ownership?
        b.  If so, in these cases does the agency insist on 
        restrictions on surface operations as part of the deed? If not, 
        why not?
    Response: The Service does, at times, acquire new refuge lands 
without subsurface ownership. Various factors can contribute to such an 
acquisition. For example, the subsurface rights may not be available, 
or the cost of the subsurface rights might be prohibitive. Where 
applicable, the Service does include reasonable restrictions on surface 
operations in the deed; however, in the case of currently outstanding 
mineral rights, the Service lacks the authority to impose deed 
restrictions.
    13. If the Administration is so convinced that oil and gas drilling 
can be done in an environmentally friendly way on national wildlife 
refuges, why does it insist on essentially exempting these activities 
from the compatibility test required under the National Wildlife Refuge 
System Administration Act?
    Response: We do not exempt activities from the compatibility 
requirement. The compatibility test of the National Wildlife Refuge 
System Administration Act is a legal standard for determining whether 
an activity under the control of the Service may be allowed within a 
National Wildlife Refuge.
    Generally speaking, the purposes of individual refuges, as well as 
the System, are wildlife conservation. Oil and gas activities are 
generally not compatible with those purposes, which is why the 
Administration has not sought to open refuges generally to leasing of 
Federal oil and gas resources as it seeks to increase domestic 
production. As noted in my testimony, current oil and gas activities on 
National Wildlife Refuges are either cases where Federal resources were 
leased prior to the compatibility standard being enacted, private 
retained rights to which the compatibility standard is not applicable, 
or cases where Federal resources are being drained from adjacent 
private lands in which case development occurs under federal lease and 
permit requirements and regulations, including conditions to ensure 
habitat protection, if there is no other way to protect the Federal 
economic interest in those assets.
    The situation at the Arctic National Wildlife Refuge is different, 
however. There the Alaska National Interest Lands Conservation Act 
(ANILCA) required analysis and recommendations from the Department of 
the Interior on whether a small portion of the refuge should be opened 
to oil and gas leasing. This was action taken by Congress in 1980. 
Congress also reserved to itself the right to decide whether the 
leasing would occur.
    If Congress were to decide to open that portion of the refuge to 
oil and gas activities, there would be no need for a compatibility 
determination. Such a decision would be made in legislation signed into 
law.
    I would also point out that if the Administration's proposal for 
leasing at the Arctic National Wildlife Refuge were enacted, it would 
have the most stringent environmental standards ever applied to oil and 
gas activities. It is these environmental standards that would protect 
the Refuge's fish and wildlife resources for the duration of whatever 
activities were to occur.
Response to questions from The Honorable Edward Markey
    Pursuant to 31 USC 720, and Departmental Policy, the Department of 
the Interior is in the process of developing a formal response to GAO's 
report which should provide a more detailed look at how it plans to 
address GAO's recommendations. We will gladly provide all Members of 
the Subcommittee with a copy of that response as soon as it is 
available.
    1. According to GAO report, the Fish and Wildlife Service has only 
spent $380 thousand from 1991 to 2002 on cleanup of 14 sites, with a 
further $100 thousand planned for 2003 to clean up 3 sites (p. 29). On 
the same page, it also notes that the Anahuac National Wildlife Refuge 
alone has an estimated cost of cleanup of $1.1 million, which is 
currently deferred until Fiscal Year 2009. This suggests that there is 
a significant need for financial resources to support clean up 
activities.
      How many of the 4,000 wells on refuges have known owners or 
responsible parties? What federal and state guarantees are in place to 
ensure proper clean up, both funding mechanisms, like bonding, and 
reclamation standards?
      The estimated clean up cost at Anahuac Refuge is very troubling. 
What are the details of that site? Why isn't the polluter paying? How 
many more sites are estimated to cost over a million dollars to clean 
up?
    Response: The Service does not maintain a central repository for 
information on all the owners and responsible parties for oil and gas 
wells on refuges. This data field will be built as part of a national 
database of refuge oil and gas activities that is being developed. 
However, due to many wells being drilled prior to establishment of some 
of our refuges, multiple ownership changes, bankruptcies, or 
abandonments, clarifying ownership and identifying responsible parties 
often proves difficult. Enforcement for clean up and restoration is 
often through existing Federal authorities, including the Clean Water 
Act, the Oil Pollution Act, and the Resource Conservation and Recovery 
Act, as well as through State law and regulatory compliance. Where 
feasible, the Office of the Solicitor seeks payment for cleanup from a 
responsible party. However, where there is no identifiable responsible 
party, the Service must assume the cost of cleanup, which is why 
funding for those activities is limited.
    This is the case at Anahuac National Wildlife Refuge (NWR) where 
old oil and gas production facilities and wells were in place prior to 
refuge establishment. The wells and operators at Anahuac NWR have 
changed hands from major production companies to many individual small 
operators who are incapable of completing the necessary restoration. 
When many of the oil fields were established there was little Federal 
regulatory authority in effect. Current State law allows facilities to 
remain in place until the entire field is no longer in production. The 
refuge is working with each operator to restore individual sites as 
production shuts down. However, due to the importance of the area to 
wintering waterfowl, benefits could be accrued to wildlife on a larger 
scale should a more immediate and widespread clean up effort take place 
that restored the functions of whole wetland ecosystems.
    2. The Department of Interior had a panel review financial 
assurances of mineral extraction on public lands. Apparently, their 
report is now with Secretary Norton. What have they concluded about 
bonding for oil and gas activities on wildlife refuges? When will 
Congress be able to review their final report?
    Response: The Department is in the process of reviewing financial 
assurances of mineral extraction on public lands. The focus is 
primarily on Department lands with federally-owned mineral rights, and 
will have limited reference to bonding for oil and gas activities on 
wildlife refuges.
    3. The GAO states that both the National Park Service and the U.S. 
Forest Service have adopted regulations that require mineral rights 
owners to obtain permits before engaging in oil and gas activities on 
federal lands they manage, but that the Fish and Wildlife Service does 
not. GAO concludes Fish and Wildlife Service has ample legal authority 
to do so but has not. Why hasn't the agency moved to adopt such 
regulations? Will it in the future?
    Response: In instances where the Service has the authority, the 
Service will continue to find ways to strengthen the application of 
that authority consistent with both state and federal law. Where the 
Service does not have that authority, options will be explored and 
coordinated with applicable state and federal regulators. Finally, the 
Service will continue to work with owners of private mineral rights 
underlying refuges to enhance ongoing efforts to build partnerships and 
minimize the adverse impacts of these activities on fish and wildlife 
resources.
    4. How many enforcement actions has the Interior Department taken 
against oil and gas activities that have harmed fish, wildlife, and 
habitats on national wildlife refuges?
    Response: This information is unavailable at this time as the 
Service does not maintain a central repository for such data. This is a 
data field expected to be created as the database on refuge oil and gas 
activities is developed in the future. The Service will assemble a team 
to identify the specific types of oil and gas related information that 
the Service should gather and to develop the associated data gathering 
protocols and data management systems. The team will establish a 
framework to ensure that such systems are developed, function properly 
and are populated with valid information.
    5. GAO pointed out that in the past, when Fish and Wildlife Service 
purchased new refuge lands it often did so without purchasing the 
subsurface minerals and in those cases, it often did not insist on 
restrictions on surface activities related to accessing these minerals. 
Does Fish and Wildlife Service continue to purchase new refuge lands 
without subsurface ownership? If so, in these cases does the agency 
insist on restrictions on surface operations as part of the deed? If 
not, why not?
    Response: The Service does, at times, acquire new refuge lands 
without subsurface ownership. Various factors can contribute to make 
such an acquisition. For example, the subsurface rights may not be 
available, or the cost of the subsurface rights might be prohibitive. 
Where applicable, the Service does include reasonable restrictions on 
surface operations in the deed; however, in the case of currently 
outstanding mineral rights, the Service lacks the authority to impose 
deed restrictions.
    6. If the Administration is convinced that oil and gas drilling can 
be done in an environmentally friendly way on national wildlife 
refuges, why does it insist on exempting the activity from the 
compatibility test of the National Wildlife Refuge System 
Administration Act?
    Response: We do not exempt activities from the compatibility 
requirement. The compatibility test of the National Wildlife Refuge 
System Administration Act is a legal standard for determining whether 
an activity under the control of the Service may be allowed within a 
National Wildlife Refuge.
    Generally speaking, the purposes of individual refuges, as well as 
the System, are wildlife conservation. Oil and gas activities are 
generally not compatible with those purposes, which is why the 
Administration has not sought to open refuges generally to leasing of 
Federal oil and gas resources as it seeks to increase domestic 
production. As noted in my testimony, current oil and gas activities on 
National Wildlife Refuges are either cases where Federal resources were 
leased prior to the compatibility standard being enacted, private 
retained rights to which the compatibility standard is not applicable, 
or cases where Federal resources are being drained from adjacent 
private lands in which case development occurs under federal lease and 
permit requirements and regulations, including conditions to ensure 
habitat protection, if there is no other way to protect the Federal 
economic interest in those assets.
    The situation at the Arctic National Wildlife Refuge is different, 
however. There the Alaska National Interest Lands Conservation Act 
(ANILCA) required analysis and recommendations from the Department of 
the Interior on whether a small portion of the refuge should be opened 
to oil and gas leasing. This was action taken by Congress in 1980. 
Congress also reserved to itself the right to decide whether the 
leasing would occur.
    If Congress were to decide to open that portion of the refuge to 
oil and gas activities, there would be no need for a compatibility 
determination. Such a decision would be made in legislation signed into 
law.
    I would also point out that if the Administration's proposal for 
leasing at the Arctic National Wildlife Refuge were enacted, it would 
have the most stringent environmental standards ever applied to oil and 
gas activities. It is these environmental standards that would protect 
the Refuge's fish and wildlife resources for the duration of whatever 
activities were to occur.
    7. Under the National Wildlife Refuge System Improvement Act, each 
national wildlife refuge must periodically prepare a Comprehensive 
Conservation Plan. Among other things, the Act requires each plan to 
``identify and describe significant problems that may adversely affect 
the populations and habitats of fish, wildlife, and plants and the 
actions necessary to correct or mitigate the problems.''
        a.  Does Fish and Wildlife Service guidance on planning require 
        that spills, habitat removal, and other impacts from oil and 
        gas activity be identified in refuge plans?
        b.  Does Fish and Wildlife Service planning guidance suggest 
        actions to correct or mitigate such problems, such as requiring 
        permits with stipulations or acquisition of mineral rights?
        c.  Have any Comprehensive Conservation Plans been completed 
        for refuges with oil and gas activity?
        d.  If so, have they identified oil and gas as problems and 
        identified actions to correct or mitigate the problems?
        e.  Have any refuges identified purchase of mineral rights as 
        an action to correct or mitigate the problem?
    Response: In conducting refuge Comprehensive Conservation Plans 
(CCPs), all refuge uses are identified and evaluated. Management 
authorities are delineated in areas of mineral ownership, easements, 
joint management agreements, overlay refuges and other cross 
jurisdictional responsibilities. To date, 22 of the 150 refuges cited 
by the GAO as having oil and gas activity have completed their CCP. A 
CCP for a refuge, however, does not usually designate specific 
mitigative measures for oil and gas activities since corrective 
measures are usually tailored to individual disturbance actions. 
Guidance for managing oil and gas activities is found in the Service 
manual chapters: Minerals and Mining (612 FW 1); and, Oil and Gas (612 
FW 2). Further clarification of existing authority will be provided to 
Service land managers through training and development of a handbook on 
refuge oil and gas management during the next year.
    The acquisition of minerals has been identified at some refuges for 
long-term surface protection on or adjacent to the refuge. Proposed 
mineral rights acquisition may or may not be part of the CCP process.
    8. Figure 5 of the GAO report ``shows an ongoing clean up of a 
relatively small oil spill that occurred at Delta NWR in 2002.'' Can 
the Fish and Wildlife Service provide the following information about 
this specific spill and cleanup effort:
          The type and amount of the spill,
          The spill response time (Did response start within 1 hour, 1 
        day or one week?),
          The duration of the spill, and
          What type of FWS oversight was provided to ensure proper 
        clean up?
    Response: The crude oil spill at Delta NWR was estimated to be less 
than 40 gallons. The response time was immediate, as the spill occurred 
when production was started again after shutdown of the field during 
two hurricane events in Fall 2002. Workers were present when a new pump 
motor malfunctioned, spilling crude oil within the ring levee at the 
storage facility. The clean-up required several weeks to skim and mop 
up the oil from the accumulated flood waters within the ring levee. The 
refuge had staff on-site to assess and monitor clean-up actions.
                                 ______
                                 
    Mr. Gilchrest. I also ask unanimous consent that Mr. Markey 
may sit on the dais for the rest of this hearing. Hearing no 
objection, so ordered.
    Welcome, Ed. The Irishman from Massachusetts.
    First of all, I want to thank you all for coming here to 
testify, in what we would like to begin to gather from this 
hearing and future discussions that we have.
    Is there any authority that Fish and Wildlife needs that it 
does not have now to specifically deal with the full range of 
oil and gas and mineral extraction activities on Federal 
refuges, whether it's an enhanced legislative statute that 
deals with reserved rights, that deals with outstanding rights, 
that deals with similarities that the Park Service or the 
Forest Service has with oil and gas extraction that the Fish 
and Wildlife Service doesn't have the authority to do, that you 
can do in a regulatory way, or you may need to have some 
legislation?
    When we reviewed the GAO report, there were places around 
the country that seemed to do extraordinarily well with 
managing oil and gas activities. And when we looked at why they 
did it so well, it was because they paid attention to it. There 
were staff on the Refuge System that knew about these kinds of 
things, and they worked well with those companies that were 
mining on those refuges. But in areas where there was limited 
staff or no staff, there seemed to be very little understanding 
as to what activities were actually going on.
    So that's the crux of this hearing. We want to make sure 
that on every refuge there is a staff person, whether dedicated 
to that particular operation, or as part of his role, he will 
understand where all of the oil and activities are and what the 
permitting procedures are, and how they interact with all the 
other Federal regulations, not the least of which is the Clean 
Water Act.
    But this one short paragraph I would just like to read and 
then ask Mr. Smith to respond. This is from the GAO report, 
page 32:
    ``The refuges we examined varied in the extent to which 
they identified risks, adopted procedures to minimize those 
risks, and monitored oil and gas activities. First, some refuge 
staff did not have complete information on the extent of oil 
and gas activities occurring on their refuges. For example, at 
Deep Fork National Wildlife Refuge--Deep Fork is in Oklahoma--
refuge staff estimated that there were 600 or more abandoned 
wells but knew the location of very few of these wells. 
Further, as noted earlier, only 67 of the 155 refuges with oil 
and gas activities and 10 of the 16 refuges we visited had 
completed the Containment Assessment Program, or CAP studies, 
identifying the possible sources and types of contamination on 
the refuges.''
    ``In contrast, the Kenai National Wildlife Refuge staff had 
detailed information on oil and gas wells and activities on the 
refuge, had completed an exhaustive CAP study, and was 
completing an Environmental Impact Statement on the effects of 
oil and gas activities.''
    If you could respond to that rather significant difference 
in Fish and Wildlife's understanding of the activities, 
comparing Alaska to Oklahoma, and what we can do as a Congress 
to assist you in the process to ensure that there is good 
management on all our refuges.
    Mr. Smith.
    Mr. Smith. A few observations, Mr. Chairman.
    At this time, we are not contemplating, nor are we seeking, 
any additional regulatory authority. I think the GAO audit and 
report offer some good insights and suggestions. I think it 
makes the observation that many of these issues that our refuge 
managers face are largely historic and a lot of them were 
either existing when the refuge lands were purchased, or date 
back as many as 70 years into the past.
    One of the things that we're working on--I think the last 
time the Fish and Wildlife Service held a meeting, or a 
workshop, on the issue of oil and gas on refuges was as far 
back as 1991, during President Bush 41's tenure. What----
    Mr. Gilchrest. Would you say, however, that there are some 
areas where Fish and Wildlife works well to understand the 
containment problems, and in other areas they are lacking--Is 
it because Fish and Wildlife is lacking in sufficient funds, 
lacking in a training program, lacking in staff to deal with 
these issues?
    Because when I read through this report, it was basically 
replete with certain places doing an extraordinarily good job--
whether it was Pennsylvania or some places in Louisiana, or 
Texas, or California, or Alaska--but there were other areas--
Some refuges in some States do really well, and some refuges in 
the same States don't do very well at all.
    Mr. Smith. I think that's a good point. I think the men and 
women of the Refuge System, the managers, on-the-ground people, 
I am particular proud of them. I think they do more with less 
funds and less resources than just about any other land 
management agency. I think that is pride in the system and 
pride in our personnel.
    One of the things we are developing is some guidance and a 
workbook that can be provided to our refuge managers to help 
them with technical assistance in addressing oil and gas 
refuges. One of the things we can do better is, where there is 
unevenness from refuge to refuge, in both dealing with and 
working with oil and gas operators on refuges, I think we can 
build in some consistency.
    There are refuge managers out there who have more 
experience, who are more sophisticated, who are used to 
drilling--used to working voluntarily with oil and gas 
operators sometimes, and sometimes, if they have reserved 
mineral rights, working under a permit structure.
    There are some refuge managers who are newer to the issue, 
who could benefit--who will, I think, benefit from a more 
comprehensive approach through the draft guidance document we 
are working on internally, and also through some of the 
training programs we are in the process of designing with the 
help of the National Conservation Training Center.
    Mr. Gilchrest. I asked Ambassador Bremmer yesterday what 
was the time frame for U.S. soldiers to rotate back to the 
States and be replaced by Iraqi soldiers. He basically gave me 
a time frame.
    So is there some type of time frame you have for this 
training program to be completed so that all refuges, where 
there is oil and gas activity, the staff will have an 
environmental and a legal understanding of what their 
responsibilities are?
    Mr. Smith. I'm going to turn to Mr. Hartwig here to help me 
out with the exact timing, since he and his staff been working 
most diligently on this.
    Mr. Hartwig. Mr. Chairman, I believe we can do such a 
training program, at least get the design done and have it 
ready for implementing, as well as the start of a booklet to be 
able to guide activities for new refuge managers, within about 
a 6-month time period.
    Mr. Gilchrest. I see. Thank you.
    We will probably have another round or two. My time is up, 
so I will yield now to Mr. Tauzin.
    Mr. Tauzin. Go ahead.
    Mr. Gilchrest. Mr. Markey.
    Mr. Markey. Thank you.
    Mr. Hill, you have recommended that Congress ensure that 
the Fish and Wildlife Service has legal authority to issue 
permits to consistently regulate and oversee oil and gas 
operations on wildlife refuges. My impression is that refuge 
managers, one, are understaffed, two, are confused about their 
authority, and three, do not feel it is their job to regulate 
oil and gas activities.
    If these three assumptions are correct, is it a matter of 
simply clarifying authority, or must we place a higher priority 
on the amount of resources allocated to this purpose?
    Mr. Hill. I think it's a little bit of everything that you 
mentioned. Right now, there are varying interpretations and 
understandings of just what the authorities are out at the 
Refuge System. It's clear in terms of the reserve rights, that 
if the deed specifies the Fish and Wildlife Service has some 
authority to issue permits, that they can do that. If the deed 
is not specified, they do not have authority to do that.
    With regard to the outstanding permits, the Department has 
not taken a position on that. I think there is a lot of 
confusion out at the refuges as to whether they have authority 
to exercise permitting on outstanding rights or not.
    Getting beyond that, there is inconsistency in the way this 
whole thing is being implemented, in terms of there are not a 
lot of resources, not a lot of expertise, there has not been a 
lot of training. It is an awesome task to go through and 
identify the extent of activities that are on these refuges.
    To just let you know where the Department is right now, 
about 2 years ago we asked Fish and Wildlife to identify how 
many refuges had oil and gas operations. They were only able to 
come up with 77 of the refuges. That's less than half of what 
we are reporting now. So they really are behind the 8-ball on 
this, in terms of identifying the types of activities that are 
going on out there. Once they have identified these activities, 
then they have got to go through those deeds and determine 
whether or not there is reserve rights, outstanding rights, 
whether the deeds contain some type of language that would 
allow them to permit. So it's going to be a big job, and it 
will take some concerted effort and some priority on their part 
and resources to do it.
    Mr. Markey. Well, that's a blistering, scalding assessment 
actually.
    According to the GAO report, the staff at the Sabine 
National Wildlife Refuge drafted, in conjunction with 
headquarters staff, more detailed national guidance on managing 
and overseeing oil and gas activities. But the Fish and 
Wildlife Service has not approved this draft guidance.
    Mr. Smith, why has this guidance not been approved?
    Mr. Smith. I'm not sure. Who did you say drafted this?
    Mr. Markey. The GAO. It's inside this report, the Sabine 
National Wildlife Refuge.
    Mr. Smith. I'm a little confused, as far as which draft----
    Mr. Markey. On page 38 of the report, if you could turn to 
that. The staff at the refuge drafted, in conjunction with 
headquarters staff, more detailed national guidance on managing 
and overseeing oil and gas activities, but Fish and Wildlife 
has not approved this draft guidance.
    Mr. Smith. OK. Now I'm square.
    Chris Pease, who is the refuge manager at Sabine, actually 
has been brought into the headquarters in D.C. He has been 
working with us and he is one of the players who is actually 
working on developing a national policy guidance and national 
reference manual for refuge managers. So I have no doubt that a 
lot of this guidance that was developed during his tenure at 
Sabine will be incorporated into a lot of the policy guidance 
manuals that will be provided to refuge managers, as well as 
the training.
    Mr. Markey. When will that be completed? When will the 
national guidance on management and oversight of oil and gas 
activities in wildlife refuges be----
    Mr. Smith. We plan to have a draft ready to go within 6 
months.
    Mr. Markey. Six months. How long have you been working on 
it?
    Mr. Smith. Well, we have been working on this for several 
months already. We have some of those draft ideas put together. 
But we need to get those ideas surfaced within the different 
regions and States that we're working with. We certainly want 
to have those ideas run past the folks in the industry that we 
work with hand in hand as well, to make sure we understand 
their activities and they understand our responsibilities, and 
we come up with a good understanding of both.
    Mr. Markey. Mr. Smith, you don't believe that Fish and 
Wildlife needs more authority to apply any new guidance to all 
refuges with oil and gas activities?
    Mr. Smith. At this time, I don't think we need any more, 
and we're not seeking any additional regulatory authority from 
Congress. I think, right now, with regulatory authority, we 
have, by virtue of reserve oil and gas rights, combined with 
the commitment of our folks to work closely with industry, on a 
voluntary basis. I think right now we have the resources that 
we need to try to move forward.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Markey.
    Mr. Tauzin.
    Mr. Tauzin. Thank you, Mr. Chairman.
    Let me say to my friend from Massachusetts, I know he has 
an enormous interest in how well we do in oil and gas 
production in Louisiana because his State consumes 65 times the 
energy it produces, according to the latest EIA statistics, 
while in Louisiana we produce twice as much as we consume. A 
great deal of our resources from these National Wildlife 
Reserves end up in his State, to the benefit of his consumers.
    I might add, by the way, that while Louisiana doesn't exact 
a tax, because we are not permitted to from Federal lands, the 
State of Massachusetts also enjoys enormous tax resources from 
those natural gas and oil products that flow into 
Massachusetts. I know he has a great interest in making sure we 
continue that process, but to do it right.
    Mr. Markey. Can I say, Mr. Chairman, that----
    Mr. Tauzin. I would be happy to yield to my friend.
    Mr. Markey. Thank you.
    Massachusetts produces 65 times the computers that 
Louisiana does, but yet, we feel that you have a role as the 
Chairman over telecommunications to have an opinion on how the 
computer and telecommunications----
    Mr. Tauzin. I thank my friend. I report to him that we're 
49th in consumer use, and Massachusetts is not 49th in energy 
use, I'll tell you that.
    Let me also point out, as I pointed out before you got 
here, Mr. Markey, that in the year 2000 Senator Breaux and I, 
representing many of these refuges in our State, actually 
provided the money to not only manage Sabine and other 
resources better, but actually to make sure that money was 
provided to cover any mitigation of any potential spills or 
damages. That hasn't been done elsewhere in this country.
    I might also point out that the entire debate in the 104th 
and 105th Congress, when the organic statute was passed for the 
National Wildlife Refuge System, not a single amendment was 
offered by anyone, on this panel or otherwise, dealing with oil 
and gas activities. In fact, you received a lot of comments on 
this report, did you not? Any one of you.
    Mr. Hill. We did receive comments from the Department of 
Interior, yes, we did.
    Mr. Tauzin. You did get commenters before you issued this 
report. I'm reading a lot of statements of a lot of different 
commenters, right?
    Mr. Hill. Our normal process would be to exist with people 
at the refuges, the local officials that we have interviewed, 
and----
    Mr. Tauzin. I'm looking at an Interior document on the 
compatibility. That kind of a process did require the 
solicitation of comments, did it not?
    Mr. Smith. Correct. That was a public notice and comment 
process in the development of the compatibility----
    Mr. Tauzin. And you get a lot of comments on those, don't 
you?
    Mr. Smith. We got a huge number of comments.
    Mr. Tauzin. A huge numbers of comments. I'm going to quote 
from that report. On page 62462. Three commenters--three--
suggested that the definition of ``activities'', economic 
activities, not include oil and gas leasing. Three, out of all 
this huge volume of comments you got. To call this some sort of 
a blistering assessment of how awful things are is a little 
strong, Mr. Markey.
    Let me also point out--I think you made the case, but I'm 
not sure it's well understood in common-law States. But in 
Louisiana, where most of this activity occurs--I think it's a 
little different in Texas, but in Louisiana there is a separate 
regime for surface rights and oil and gas rights, is that not 
correct?
    Mr. Smith. That is absolutely correct.
    Mr. Tauzin. In fact, the ownership of the underground 
rights, the oil and gas mineral rights, when exercised, can 
continue--as long as exercised, can continue for as long as 
there is activity and production in Louisiana law, is that not 
correct?
    Mr. Smith. That's my understanding, at least----
    Mr. Tauzin. No matter what you might want to do in the 
management of the rules, you might want to prescribe in your 
agency, there are legal rights to the owners of those resources 
that you simply can't trample, is that correct?
    Mr. Smith. That's correct.
    Mr. Tauzin. So really, the question of whether or not your 
agents in these reserves would like to regulate those 
activities, very often their ability to lease or control the 
leasing and exploration from the standpoint of permitting is 
simply governed by State law dealing with the oil and gas and 
mineral rights owned by the previous owner before surface title 
was passed to the U.S. Government, is that correct?
    Mr. Smith. That's correct, in the case of nonreserve oil 
and gas, absolutely.
    Mr. Tauzin. Right. What you can do, however, is to organize 
and manage those activities. That's what you were talking 
about, working with the industries who do produce these 
resources for the owners of them, to manage them in a way that 
you obviously prevent any damage or activities that would harm 
the surface environments of those reserves, is that correct?
    Mr. Smith. That's correct.
    Mr. Tauzin. Now, I want to point out and ask you a 
question. In 1991, during the previous first Bush 
Administration, there was training and workshops on managing 
private oil and gas operations in refuges, is that correct, in 
1991?
    Mr. Smith. That's correct.
    Mr. Tauzin. And now, under this Bush Administration, you're 
actually developing a handbook, classroom training for managers 
on this subject, and you are moving forward with new national 
guidelines to your managers, is that correct?
    Mr. Smith. That is correct.
    Mr. Tauzin. Was anything done during the 8 years 
intervening, the Clinton years?
    Mr. Smith. Not to my knowledge. We will----
    Mr. Tauzin. I don't think so, either. So here's the record. 
The record is that during the first Bush Administration good 
attention was paid to this, and during this Administration, 
you're paying a lot more attention to it.
    In the last several years, those of us who represent the 
great State of Louisiana, that produces these resources from 
our lands and water bottoms for the benefit of people who live 
in other great States of our Nation, we saw to it that 
legislation was adopted to help provide the money to do this. 
But nowhere else in the record is there any effort, in the 
statutes that were adopted to create the management systems for 
our wildlife refuges, nowhere else has there been an effort, by 
anyone else, to amend the statutes or to restrict or to give 
you guidance in this area.
    On the contrary, on the contrary, those of us who live in 
the State where most of this is occurring, who have been paying 
the most attention to it, in Texas and Louisiana where most of 
it occurs--and I have to throw in Alaska--have been the most 
active in making sure that our States have policies that 
protect the land and the water and the resources on those 
refuges.
    Do you know why? Because it's our land. It's our homes. It 
happens there is Federal land located in our States. They are 
the land and water bottoms that are so precious to us in 
Louisiana. That's why, Mr. Markey. We have cared very carefully 
about it, while others have not.
    So while I appreciate all the new interest and concern that 
you and others share in it--and I hope you will join us in 
helping to maintain those reserves--I hope in the process, as I 
said before you got here, I hope in the learning curve process 
you come to learn, as we have, that you can compatibly engineer 
plans and processes that allow the compatible uses of these 
lands for these purposes, under the legal rights of the owners 
of these resources, and at the same time produce valuable 
resources for our country and protect the natural wildlife 
systems in which these activities occur, in such a way that 1 
day you might even agree that it could occur in that little 
tiny, less than on one-hundredth of a percent of the Alaskan 
National Wildlife Reserve that was dedicated to these multiple 
uses.
    I thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Tauzin.
    Mr. Smith, you said that within 6 months there will be a 
handbook, a guidebook, some guidance to refuge managers, to be 
able to deal with I'm assuming the full range of oil and gas 
activity on their refuge, so there will be a clear 
understanding of end guidance as to what their authority is as 
far as managing those refuges that have either ongoing oil and 
gas activities or where there were oil and gas activities and 
where to locate the wells. So that's about a 6-month time 
frame, the guidance.
    I'm assuming that if we hold a hearing, or when we hold a 
hearing in April, that we will sit here and have a copy of the 
guidance book before us.
    Now, the reason I'm asking and the reason we're holding 
this hearing is because, if we look at certain places around 
the country, as has already been stated, whether it's in 
Sabine, Louisiana, or Kenai, Alaska, or other places, the 
management of those facilities is done extremely well because 
of the individual that is there, and that individual's interest 
in where all of either the abandoned wells are located, where 
all the oil infrastructure is located, where all the spills may 
have occurred, and where State law and Federal law helps to 
clean up those spills, and it's done exceedingly well.
    But apparently, in the GAO report there is other places 
where it's not done very well at all, where the abandoned oil 
wells are not known. They're not known if they're on the 
refuge, not known if theywere on the refuge, where they're 
located, the infrastructure is not known, the abandoned oil 
tanks are not known. So some places do very well and some 
places do very poorly.
    This is the crux, the ability to balance the refuge as far 
as the integrity of the ecosystem is concerned with mineral 
extraction. Some places do it well, some places don't do it so 
well.
    Mr. Tauzin. Would my friend yield?
    Mr. Gilchrest. Mr. Tauzin.
    Mr. Tauzin. Just a quick comment. It's interesting. We want 
to know everything we can about those abandoned wells, but some 
of you are opposed to any kind of national inventory of what is 
available in this country in the Energy bill. But if you would 
yield to me for a second, I would like to ask a technical 
question.
    Mr. Gilchrest. Sure.
    Mr. Tauzin. Mr. Hill, the GAO report on page 14 states that 
24.5 trillion cubic feet were produced domestically onshore in 
2001----
    Mr. Gilchrest. What page was that on?
    Mr. Tauzin. On page 14. And then you use that figure to 
calculate that only four-tenths of 1 percent of gas comes from 
Wildlife Refuges. But, in fact, according to the EIA, we 
consume only 23 TCF domestically, with about 15 percent of that 
coming from Canada and about 5 TCF coming from the offshore.
    My understanding is that that's a technical error in the 
report. If it is, if you disagree with it, might we have a 
discussion on that at some point and make sure the report is 
accurate in this record? It seems to conflict with the EIA 
numbers is what I'm saying.
    Mr. Aussendorf. The figure in this report is based on 2001, 
and it was from an Energy Information Agency document. I can 
send you that document.
    Mr. Tauzin. I wish you would, because our information is to 
the contrary. We have different figures. If you're correct, 
fine. But if you're not, obviously we would like to correct 
that. Thank you, sir.
    Mr. Gilchrest. The other part, Mr. Smith, and maybe Mr. 
Hill can make a recommendation and Mr. Smith can state whether 
this would be in some type of guidance book or whether or not 
it actually needs to be dealt with. That is the apparent 
confusion between reserved rights and outstanding rights and 
what the role of Fish and Wildlife is in those two areas.
    Do you need some clarification for the difference in 
reserved and outstanding rights? Do you feel it is already 
clear at this point so no further work needs to be done on it?
    Mr. Smith. At this time, I think we actually have a very 
clear concept of reserved and our rights under reserved. I 
think it's always been the general feel and the general opinion 
of the Department that, with regard to oil and gas rights owned 
by third parties, which are not reserved, we really don't have 
any, under the law, any regulatory authority over those.
    As to State law, most States recognize mineral estates as 
dominate estates and, as such, they have a property right of 
access and development.
    Mr. Gilchrest. So you don't have a clear understanding of 
your authority over outstanding rights?
    Mr. Smith. I think the general opinion of the Department 
has always been, legally, we don't have the authority to 
regulate those activities by Federal permit.
    Mr. Gilchrest. So you have a clear understanding of 
outstanding rights right now?
    Mr. Smith. I think we have a fairly clear understanding, 
yes.
    Mr. Gilchrest. Would you agree with that, Mr. Hill?
    Mr. Hill. No, I wouldn't. In fact, during the course of the 
audit, we specifically asked the Interior's Solicitors Office 
for an opinion on this. The response we got was that the 
Solicitors Office had not made an opinion on this, nor did they 
plan to make an opinion on this. So we think this is something 
that really needs to be clarified.
    Furthermore, our assessment of that authority shows that, 
based on authorities given to the Park Service and the Forest 
Service under very similar circumstances, we believe they do 
have such authority.
    Mr. Gilchrest. So you're saying the Fish and Wildlife 
Service, right now, has the same authority that the Park 
Service has for outstanding rights?
    Mr. Hill. That is our interpretation. But here again, we 
would encourage the Department of Interior to render an opinion 
on this.
    Mr. Gilchrest. What is the authority?
    Mr. Hill. The authority would allow them to do permitting 
authority over outstanding mineral right holders.
    Mr. Gilchrest. Mr. Smith, right now you feel you have no 
authority?
    Mr. Smith. That has generally been, for years and years and 
years, the interpretation of the Department of Interior.
    Mr. Gilchrest. Is that's the opinion of the Department of 
Interior, Mr. Hill, you're saying the Solicitor said he didn't 
want to render an opinion?
    Mr. Hill. We have not seen a formal opinion from the 
Solicitor's Office. I would encourage the witness, if they have 
such an opinion, to produce it. Because during the course of 
our audit, they did not produce such a document.
    Mr. Gilchrest. Is there such a document, Mr. Smith?
    Mr. Smith. To my knowledge, there has never been a formal 
Solicitor's opinion requested because of the general approach 
and general opinion of the Department. We have always felt 
like, absent that--at least over the past few years, we have 
felt, absent such direct regulatory authority, we have the 
ability to work with States, under State law and under State 
rules and regulations, and to work with oil and gas producers 
and mineral rights owners on a voluntary, cooperative basis to 
get the same results.
    Mr. Gilchrest. So you don't see the need to have the same 
authority that the Park Service has?
    Mr. Smith. At this time, we don't see the need. In fact, I 
think we would run afoul of some of the purposes of the 
National Wildlife Refuge protecting habitat because of chilling 
effects on the ability to secure high quality habitat by people 
who are unwilling to either sell their property or by making it 
prohibitively expensive to secure some of that surface habitat.
    Mr. Gilchrest. We will probably ask this question in April 
again, to see where we are, as we review some more of the 
information ourselves. But that will be one of the questions we 
will ask, along with the guidance book on this process.
    I will yield again to the gentleman from Massachusetts, Mr. 
Markey.
    Mr. Markey. Mr. Smith, I am interested in how generous the 
Administration is being in the case of buying out the mineral 
rights on three refuges in Florida for $120 million.
    What other refuges might be eligible for this method of 
freeing the Fish and Wildlife Service of having to manage oil 
and gas permits that are incompatible with refuges?
    Mr. Smith. I'm not aware of us buying out any oil and gas 
rights on any refuges in Florida. The Administration has moved 
to purchase mineral rights underlying Big Cypress National 
Preserve, which is a unit of the National Park Service in 
Florida.
    Mr. Markey. On May 29th, 2002, the Bush Administration 
announced that the National Park Service would buy privately 
held mineral rights on three Florida wildlife refuges: the 
Florida Panther National Wildlife Refuge, Ten Thousand Islands 
National Wildlife Refuge, and Big Cypress National Preserve.
    You're not familiar with them?
    Mr. Smith. I am familiar with that. What that is is the 
National Park Service buying out one family's interest, the 
Collier family's interest underlying mineral rights in the Big 
Cypress National Preserve, which is a unit of the Park Service, 
as well as neighboring two, actually neighboring wildlife 
refuges.
    Mr. Markey. How many other refuge areas in the country 
might be eligible for this?
    Mr. Smith. I think we would have to look at that on a case-
by-case basis. I think, in order to buy out all of the mineral 
interest in all the areas in the Refuge System, would cost 
billions and billions of dollars. One of the things that----
    Mr. Markey. No, I know that. I'm just saying there is a 
precedent set here. Have you looked at any other place?
    Mr. Smith. One of the goals in that acquisition was part of 
the Administration's commitment to the Florida Everglades 
restoration project.
    Mr. Markey. Right. And have you looked at any other place 
in the country?
    Mr. Smith. We are willing to look at those on a case-by-
case basis, working closely with Congress----
    Mr. Markey. Is it just a Florida-specific program? Is it 
Everglades-specific, or are there other refuges that you might 
look at that could benefit from the same--In other words, what 
is so special about Florida? There's 49 other States. Why just 
Florida for such a program?
    Mr. Smith. Congress made a commitment under the 
comprehensive Everglades restoration program to----
    Mr. Markey. No, I know that. But we have made a commitment 
to many other places in America as well. I'm just wondering why 
Florida is singled out and the other 49 States are not?
    Mr. Smith. There was a need, under the Administration's 
commitment, to Everglades restoration at the time, to purchase 
those oil and gas rights as part of the whole Everglades 
restoration plan.
    We certainly are not foreclosing ourselves to buying out 
any other oil and gas rights in any other part of the country. 
Working closely with Congress on priorities, I don't think, 
absent working closely with Congress and the Appropriations 
Committee, are able to run around the country with a blank 
check, per se, and----
    Mr. Markey. I'm not looking for a blank check. I'm just 
trying to figure out what the policy is.
    You're arguing here that the Administration policy 
basically was that it would be necessary to make this $120 
million expenditure in order to protect the Everglades. So the 
conclusion that I think is obvious to reach is that there is 
some danger as a result in having drilling near a refuge.
    So, my question is, what is so special about the Everglades 
that you would spend $120 million in order to protect it 
against an activity which you don't believe is benign, you 
believe this is dangerous activity, and as a result, $120 
million is expended.
    Why wouldn't it be dangerous in other areas as well? Why is 
it dangerous to the Everglades but not dangerous in 49 other 
States?
    Mr. Smith. We had a unique situation in the Everglades, 
where Congress has committed a lot of money to the Everglades 
restoration.
    We also had another very important element there, which was 
willing sellers who were interested and approached us in 
selling out their mineral rights, which in a lot of other 
places we don't have that necessary part of the puzzle. Those 
pieces of the puzzle came together, and at the time it made a 
whole lot of sense.
    In other areas, we would be more than happy to work with 
Congress and the appropriators on areas that are important, 
where there is restoration programs or other programs going on, 
where there are also willing sellers, to explore those, where 
there are reasonable opportunities for a reasonable price to--
--
    Mr. Markey. I understand that.
    I guess the point is that, if you offered me $120 million, 
then I'm a willing seller. You offer me $20 million, I'm not a 
willing seller. In Florida, the Bush Administration went as 
high as it took in order to get this job done, in order to 
protect the Everglades.
    My argument would be that there are many other States that 
have areas that are just as important as the Everglades to 
those States, and to our Nation's heritage. And yet, there is 
this huge exception that you've carved out for this one area.
    But again, you see, you have made the point. You have made 
the point as to this activity, that this drilling activity is 
not benign. Otherwise, you wouldn't have spent $120 million. 
You wouldn't have spent it.
    The precedent has been set in Florida. Either it was based 
upon an actual assessment that the activity is not benign, or 
it was based upon the short-term political needs of the 
President's brother, which the President says is absolutely not 
true. I think he's an honest man on this issue. So that's the 
case.
    Then why shouldn't we be looking at all the other areas in 
the country in the same way, and why don't you have an 
inventory of all of those places that reflect the same kind of 
metric that you established in the Everglades?
    Mr. Smith. A couple of points. One, I think the resource 
that was at issue, front and center, in the Big Cypress 
acquisition was one of park resources. The refuge portions of 
that I think were really incidental to that sale.
    Two, under Federal law, we are required to pay fair market 
value for any property rights that we purchase from even 
willing sellers. So we are unable to entice sellers into 
becoming willing sellers by overpaying it, so to speak.
    Mr. Markey. I understand that, although you know that there 
are many people who are questioning whether or not you may have 
overpaid for this in the 2002 election cycle.
    Again, I guess the point that is made so clearly by the 
Everglades incident is that this property that is a refuge is, 
in fact, something that this Administration, at least in 
Florida, believes is something that should be protected.
    Mr. Gilchrest. We have three votes coming up, so that means 
we probably won't come back.
    Mr. Markey. We will not.
    Mr. Gilchrest. Seven minutes now, which means we'll be gone 
for half an hour. If you have a number of questions, Mr. Markey 
and want to return----
    Mr. Markey. Can I have just one final question?
    Mr. Gilchrest. I guess you have 60 seconds.
    Mr. Markey. OK, 60 seconds.
    Should we be trying to raise the level of management and 
oversight on all refuges to the level that Mr. Tauzin 
mentioned, the practices that Mr. Tauzin mentioned in his 
opening statement?
    Mr. Smith. One of the things that the States of Louisiana 
and Texas and their delegations did for us a few years ago is 
allowed, as part of Appropriations Committee language, allowed 
for remediation money collected as a result of refuge damage to 
stay on those refuges and go back toward the remediation of 
those damages, as opposed to going into the general treasury. 
That has helped a lot.
    One of the things we're trying to do is take a look at what 
our successes have been, and where we have good managers out 
there and good programs, and incorporate them into training 
materials and a guidebook for managers and policy guidance for 
managers.
    I think the GAO report is something we have taken very 
seriously. It has been a help to us and in their 
recommendations. I think we have the tools out there, and I 
think we're prepared and committed toward addressing this 
challenge as we face----
    Mr. Markey. Let me just go to Mr. Hill quickly because my 
time is running out.
    Mr. Hill, did your staff find that the practices Mr. Tauzin 
mentioned in his opening statement to be the exception of the 
rule on the refuges that you visited?
    Mr. Hill. I would say it was inconsistent. It varied from 
refuge to refuge. It really depended upon the attention that 
the refuge managers were paying to the issue.
    Let me caveat all this by saying there are very few staff 
at these refuges. In a lot of instances, there is only two or 
three people in charge of managing tens of thousands of acres. 
These people are dealing with lots of issues, and we really 
commend the people that are running these refuges. They are 
working hard and they're very dedicated. They are experts in 
their field.
    It's just an overwhelming task, what they have to do, and 
if you look at it from that standpoint, yes, there is a lack of 
resources here. More resources, more attention, more guidance, 
more training, a lot of things are needed if you're going to 
address this issue.
    Mr. Markey. It sounds like what he was talking about was 
the exception, not the rule.
    Mr. Chairman, I thank you so much for having this hearing. 
I thank our witnesses.
    Could I make a motion that the members on our side be 
allowed to submit follow-up questions to the witnesses?
    Mr. Gilchrest. Without objection.
    Mr. Markey. Thank you.
    Mr. Gilchrest. Mr. Markey, we will have a hearing in April 
to follow up on some of the recommendations. One of the other 
things we'll be looking for in that second hearing is to see if 
we can resolve the differences between, for example, the CAP 
study in Kenai National Wildlife Refuge that listed over 330 
known oil spills and provided the ability to resolve that 
contamination, and the difference we've been talking about all 
the way through here in the Deep Fork National Wildlife Refuge. 
The CAP study said there was no problem with the 360 wells and 
some of the spills, even though their own comprehensive 
conservation study recommended that they do deal with those oil 
spills.
    We know all you guys are all working hard. We appreciate 
the GAO report. It gives us a great deal of insight. We 
appreciate the work that you are doing, Mr. Smith, and we look 
forward to seeing you in April. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 10:42 a.m., the Subcommittee adjourned.]

    [A statement submitted for the record by Jim Waltman, 
Director of Refuges and Wildlife, The Wilderness Society, 
follows:]

      Statement of Jim Waltman, Director of Refuges and Wildlife, 
                         The Wilderness Society

    The General Accounting Office's recent report (``National Wildlife 
Refuges: Opportunities to Improve the Management and Oversight of Oil 
and Gas Activities on Federal Lands'') confirms the findings of earlier 
federal reports that oil and gas activity has caused serious damage on 
many of the national wildlife refuges where it has occurred. According 
to the report, oil and gas activity on national wildlife refuges has 
spilled hundreds of thousands of gallons of crude oil, caused mercury 
and PCB contamination, killed wildlife and thousands of fish, destroyed 
and fragmented thousands of acres of habitat, produced millions of 
gallons of brine, and caused long-term soil and water contamination.
    The GAO also confirmed earlier reports that found that the U.S. 
Fish and Wildlife Service is generally unaware of the extent of oil and 
gas activity on national wildlife refuges and portrayed the agency as 
poorly informed of the damages oil and gas activity has caused on 
refuges. According to the report, ``The Fish and Wildlife Service has 
not conducted any assessments of the cumulative environmental effects 
of oil and gas activities on refuge resources.''
    In addition, the report concluded that the agency is unable to 
consistently regulate oil and gas activities within the National 
Wildlife Refuge System. According to the report, ``refuge managers lack 
sufficient guidance, resources, and training to properly monitor oil 
and gas operators.''
    The GAO concludes that the Fish and Wildlife Service must improve 
management of oil and gas activities on refuges by collecting better 
data; improving training, oversight and land acquisition practices; and 
strengthening permitting authority through Congressional action.
    The GAO report is not the first study to conclude that oil and gas 
activity is causing damage to national wildlife refuges or that the 
Fish and Wildlife Service lacks comprehensive information on the 
location and effects of oil and gas activities in the National Wildlife 
Refuge System. Previous federally sponsored reports dating back two 
decades have identified problems associated with oil and gas activities 
in or near refuges.
    Examples of previous reports include:
Secondary Uses Occurring on National Wildlife Refuges, 1990
    According to this report from the U.S. Fish and Wildlife Service, 
63 percent of all refuge managers reported that at least one 
``harmful'' activity occurred on the refuges they managed. The report 
identified 30 wildlife refuges at which the refuge manager indicated 
that oil/gas extraction ``adversely affect[ed] the ability to conserve 
or manage in accordance with the refuge goals and objectives.'' 
Examples included Kern National Wildlife Refuge (California) where the 
activity caused ``habitat destruction, wildlife disturbance, endangered 
species take threat.'' According to the report, oil and gas activity 
caused ``surface and habitat impacts and disturbance to wildlife 
including whooping cranes'' at Aransas NWR (Texas) and ``tremendous 
vegetative loss, increases erosion, nesting losses during the nesting 
season'' at Breton NWR (Louisiana).
Continuing Problems with Incompatible Uses Call for Bold Action, 1989
    According to this study from the General Accounting Office, refuge 
managers reported that at least one harmful use was occurring on 59 
percent of the refuges. The GAO highlighted gas production at D'Arbonne 
NWR (Louisiana) as one of 16 particularly harmful activities in the 
Refuge System. According to the report ``Salt water contamination from 
gas production continues to erode the habitat's capability to support 
wildlife.... Natural gas production has destroyed wildlife habitat 
through soil and water contamination by brine.''
Contaminant Issues of Concern: National Wildlife Refuges, 1986
    This report from the U.S. Fish and Wildlife Service identified 78 
``contaminant issues of concern'' on 85 refuges. The report determined 
that at the Kenai Refuge (Alaska), ``oil and gas spills from various 
oil companies have been occurring for approximately 25 years. Also, 
numerous spills of substances used in oil field production and 
subsequently discharged into drill mud reserve pits may have affected 
local water supplies. These substances may represent sources of 
possible chronic and acute problems impacting fish and wildlife 
resources.''
Economic Uses of the National Wildlife Refuge System Unlikely to 
        Increase Significantly, 1984.
    In this General Accounting Office report, ``GAO found that Fish and 
Wildlife Service has very little data on the nature and extent of 
ongoing oil and gas operations on wildlife refuges. As a result, FWS 
cannot assess their impacts or judge the likely effects of increased 
development.'' The GAO found that ``oil operations have sometimes 
caused serious damage to refuges'' and that ``the most frequent type of 
damage reported was habitat disturbance.'' ``At Delta NWR in Louisiana, 
for example, the refuge is experiencing significant marsh loss and 
intrusion of salt water into fresh water ponds. Canals from oil 
industry operations have contributed to this deterioration.''
Fish and Wildlife Service Resource Problems, 1983
    This report from the U.S. Fish and Wildlife Service identified 146 
national wildlife refuges where oil spills and 97 refuges where oil and 
gas extraction were ``currently causing, or have the potential to 
cause, significant damage to Fish and Wildlife Service-managed natural 
resources or physical facilities.'' The findings were based on 
information submitted by refuge managers, wildlife biologists, and 
other refuge employees.
    The new report makes it very clear that the Interior Department and 
U.S. Fish and Wildlife Service have failed to respond adequately to 
address what they have known for decades to be a very real problem. It 
is unfortunate that the GAO has again found significant problems 
associated with oil and gas activity on national wildlife refuges.
    The vast majority of oil and gas activity that occurs on national 
wildlife refuges is related to extraction of private mineral rights 
that the federal government does not own and to which it cannot deny 
access. However, in its recent report the GAO concluded that the Fish 
and Wildlife Service does have certain authority to regulate this use 
so as to protect refuge wildlife and habitats but is not making use of 
this authority. Unlike the National Park Service and U.S. Forest 
Service, Fish and Wildlife Service regulations do not require owners of 
mineral rights to obtain permits that contain protective conditions 
before engaging in oil and gas activities on the federal lands that it 
manages. Congress should take action to affirm the Fish and Wildlife 
Service's authority to require permits of oil and gas operators--and 
conditions to protect fish and wildlife--where private parties own and 
hold rights to develop oil and gas beneath refuge lands.
    Finally, the GAO report provides a preview of the kinds of 
environmental damage that could be expected at the Arctic National 
Wildlife Refuge if Congress authorizes oil drilling in that pristine 
refuge in northeastern Alaska. Congress should take careful note of 
this report and continue to resist proposals to open the Arctic Refuge 
to drilling.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
